<html>
<title> - LEGISLATIVE HEARING ON H.R. 1825, TO DIRECT FEDERAL PUBLIC LAND MANAGEMENT OFFICIALS TO EXERCISE THEIR AUTHORITY UNDER EXISTING LAW TO FACILITATE USE OF AND ACCESS TO FEDERAL PUBLIC LANDS FOR FISHING, SPORT HUNTING, AND RECREATIONAL SHOOTING, AND FOR OTHER PURPOSES. ``RECREATIONAL FISHING AND HUNTING HERITAGE AND OPPORTUNITIES ACT''; H.R. 586, TO PROVIDE FOR CERTAIN IMPROVEMENTS TO THE DENALI NATIONAL PARK AND PRESERVE IN THE STATE OF ALASKA, AND FOR OTHER PURPOSES. ``DENALI NATIONAL PARK IMPROVEMENT ACT''; H.R. 995, TO ESTABLISH A MONUMENT IN DONA ANA COUNTY, NEW MEXICO, AND FOR OTHER PURPOSES. ``ORGAN MOUNTAINS NATIONAL MONUMENT ESTABLISHMENT ACT''; AND H.R. 1411, TO INCLUDE THE POINT ARENA-STORNETTA PUBLIC LANDS IN THE CALIFORNIA COASTAL NATIONAL MONUMENT AS A PART OF THE NATIONAL LANDSCAPE CONSERVATION SYSTEM, AND FOR OTHER PURPOSES. ``CALIFORNIA COASTAL NATIONAL MONUMENT EXPANSION ACT OF 2013''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




H.R. 1825, RECREATIONAL FISHING AND HUNTING HERITAGE AND OPPORTUNITIES 
 ACT; H.R. 586, DENALI NATIONAL PARK IMPROVEMENT ACT; H.R. 995, ORGAN 
            MOUNTAINS NATIONAL MONUMENT ESTABLISHMENT ACT; 
 AND H.R. 1411, CALIFORNIA COASTAL NATIONAL MONUMENT EXPANSION ACT OF 
                                 2013

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 9, 2013

                               __________

                           Serial No. 113-15

                               __________

       Printed for the use of the Committee on Natural Resources




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-816 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Chris Stewart, UT                    Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio

                                 ------                                






















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 9, 2013............................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah, Prepared statement of.............................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Benishek, Hon. Dan, a Representative in Congress from the 
      State of Michigan, Statement of............................     5
    Frost, Bert, Associate Director, Natural Resource Stewardship 
      and Sciences, National Park Service, U.S. Department of the 
      Interior...................................................    33
        Prepared Statement of the National Park Service, on H.R. 
          586....................................................    37
    Horn, William P., Director of Federal Affairs, U.S. 
      Sportsmen's Alliance.......................................    12
        Prepared statement on H.R. 1825..........................    13
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California, Statement of..........................     6
    Pearce, Hon. Stevan, a Representative in Congress from the 
      State of New Mexico, Prepared statement on H.R. 995........     7
    Recce, Susan, Director, Division of Conservation, Wildlife 
      and Natural Resources, National Rifle Association..........    16
        Prepared statement on H.R. 1825..........................    17
    Rountree, Carl, Assistant Director, National Landscape 
      Conservation System and Community Partnerships, Bureau of 
      Land Management, U.S. Department of the Interior...........    33
        Prepared statement on H.R. 995 and H.R. 1411.............    34
    Schneider, Scott, President and CEO, Visit Mendocino County, 
      Inc........................................................     8
        Prepared statement on H.R. 1411..........................    10
    Simpson, Melissa, Director of Governmental Affairs and 
      Science Based Conservation, Safari Club International......    19
        Prepared statement on H.R. 1825..........................    20
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, Statement of....................................     4

Additional materials submitted for the record:
    List of materials retained in the Committee's official files.    45
 
    LEGISLATIVE HEARING ON H.R. 1825, TO DIRECT FEDERAL PUBLIC LAND 
MANAGEMENT OFFICIALS TO EXERCISE THEIR AUTHORITY UNDER EXISTING LAW TO 
FACILITATE USE OF AND ACCESS TO FEDERAL PUBLIC LANDS FOR FISHING, SPORT 
      HUNTING, AND RECREATIONAL SHOOTING, AND FOR OTHER PURPOSES. 
 ``RECREATIONAL FISHING AND HUNTING HERITAGE AND OPPORTUNITIES ACT''; 
 H.R. 586, TO PROVIDE FOR CERTAIN IMPROVEMENTS TO THE DENALI NATIONAL 
   PARK AND PRESERVE IN THE STATE OF ALASKA, AND FOR OTHER PURPOSES. 
  ``DENALI NATIONAL PARK IMPROVEMENT ACT''; H.R. 995, TO ESTABLISH A 
   MONUMENT IN DONA ANA COUNTY, NEW MEXICO, AND FOR OTHER PURPOSES. 
``ORGAN MOUNTAINS NATIONAL MONUMENT ESTABLISHMENT ACT''; AND H.R. 1411, 
  TO INCLUDE THE POINT ARENA-STORNETTA PUBLIC LANDS IN THE CALIFORNIA 
     COASTAL NATIONAL MONUMENT AS A PART OF THE NATIONAL LANDSCAPE 
   CONSERVATION SYSTEM, AND FOR OTHER PURPOSES. ``CALIFORNIA COASTAL 
               NATIONAL MONUMENT EXPANSION ACT OF 2013''

                              ----------                              


                         Thursday, May 9, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Young, Lummis, Grijalva, 
and Garcia.
    Also Present: Representatives Benishek and Huffman.
    Mr. Bishop. The Committee will come to order, and the 
Chairman notes the presence of a quorum. We are here to listen 
to four good bills. And under the rules, the opening statements 
will be given by the Chairman and the Ranking Member. However, 
I ask unanimous consent to include any other Members' opening 
statement in the record, if submitted to the clerk by the close 
of business today.
    [No response.]
    Mr. Bishop. Hearing no objections, I am going to--because I 
want to get this thing over. I am going to waive my opening 
statement, we will put it in the record. We will use the 
introduction sometime--you have been applauding this one, this 
was really good. My only official opening statement is ``Damn 
elevators.''
    [Laughter.]
    [The prepared statement of Mr. Bishop follows:]
Prepared Statement of The Honorable Rob Bishop, Chairman, Subcommittee 
              on Public Land and Environmental Regulation
    Almost a thousand years ago the Norman Conquest brought the feudal 
system from the continent to England and much of the land and wildlife 
of England was seized by the conquerors to become the King's Forest. 
The forest could no longer be used by the people for wood or game and 
even today in most of Europe, hunting and fishing are, in practice, 
available only to the aristocracy, not average citizen.
    We took a much different path in America. Our public lands are open 
for recreational sporting activities by the citizens. In fact, the very 
origin of the conservation movement is rooted in this custom.
    It is general practice today that we are free to hunt or fish in 
National Forests and BLM lands unless there is some special attribute 
or condition that precludes it. The Hunting and Fishing Heritage and 
Opportunities Act gives this tradition a statutory guaranty.
    It is needed because there are forces at work against this unique 
attribute of American exceptionalism.
    The Forest Service has had to face NEPA challenges mounted against 
hunting and although the Forest Service ultimately won in court, they 
had to waste substantial manpower and resources to prevail. Since there 
are far better uses for our conservation dollars than that, this bill 
protects the legal status of hunting and fishing on public land with 
clear statutory language.
    The bill makes no change in the authority of the National Park 
Service to prohibit or to allow hunting on their lands. That issue is 
at the discretion of NPS and it would remain so. The bill does not 
allow extractive industries or motorized recreation in Wilderness 
areas, nor does it allow those activities under the guise that they are 
somehow linked to hunting.
    The bill gives the Secretaries of Agriculture and Interior 
authority to restrict hunting and fishing activities in locations where 
special protections are needed and justified, but it sets a presumption 
that public land is open to the public. This is a needed bill. I 
appreciate Dr. Benishek's work in drafting and introducing it and I 
hope this hearing will lead to its prompt enactment.
                                 ______
                                 
    Mr. Bishop. All right, now. Mr. Grijalva, I will turn to 
you if you have an opening statement.
    Mr. Grijalva. I do, and it is very brief.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Chairman, and thank you for 
holding the hearing and including the legislation. And my 
colleague, Mr. Huffman's legislation, as well. I appreciate it 
very much.
    I am going to focus not only the opening statement but most 
of the questioning on H.R. 1825. Two days ago we had a really, 
really good hearing on--I thought on this Subcommittee, where 
points of view were different, but I think we all recognized 
legitimate issues that Congress and agencies need to address 
with respect to outfitting and guiding on public lands.
    Today I think--and with this legislation, H.R. 1825--it is 
a different story. We have debated how to manage hunting, 
fishing, and recreational shooting in this Committee. We 
debated it on the Floor last year. And there are legitimate 
differences of opinion on this legislation, on land management 
priorities and wilderness.
    The tone and the rhetoric in the written testimony 
presented to the Committee by some of today's witnesses is 
inflammatory, to use a word we will hear from shortly, 
``specious.'' It is not meant to provide constructive 
criticism, that would lead to a plausible political outcome and 
policy change. It is meant to, I think, score political points 
and disparage any contrary opinion. It is unfortunate this 
panel feels it needs to use a legitimate issue, access for 
sportsmen, to leverage broader political campaigns against the 
Administration and those that would disagree with the point of 
view of some of our witnesses.
    It is offensive and I think it should be repudiated. 
Without the political posturing we could find agreement on this 
issue. The Senate certainly did. Unfortunately, the Majority 
and this panel decided on a different approach. Instead of 
considering a vote on common-sense background checks, the 
Majority is determined to push legislation that would turn our 
public lands into shooting ranges.
    I have seen the ending to this movie, and know where this 
bill is going. I suggest we skip the grandstanding, have a 
serious debate today about sportsmen's access to public lands 
without the unnecessary and very divisive rhetoric that we are 
going to hear shortly. With that, I yield back, Mr. Chairman.
    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation
    Thank you, Chairman Bishop, for holding this hearing today and 
including Congressman Hoffman's legislation.
    I'm going to focus most of my opening statement on H.R. 1825.
    Two days ago--on the subject of recreation--we had one of the most 
productive, non-partisan hearings that the Subcommittee has held in a 
long time.
    While our points of view differed slightly, I think we all 
recognized legitimate issues that both the Congress and the agencies 
need to address with respect to outfitting and guiding on our public 
lands.
    Today, unfortunately, is a different story.
    We have debated the issue of hunting, fishing, and recreational 
shooting in this Committee. We debated it on the Floor last year.
    There are legitimate differences of opinions regarding the impact 
of this legislation on land management priorities and wilderness.
    Had you spared me your rhetoric, I would have held mine.

Specious; Anti-hunting critics; Bias and Personal agendas; Prejudicial 
and discriminatory treatment; Hostile animal rights movement; Antis (as 
in anti-hunting); Hostile Forest Service; Bogus arguments; Nonsense; 
Paper promises; Anti-hunting regulatory and administrative actions.

    I am telling this panel now, that I think you are using a 
legitimate issue--access for sportsmen--to leverage broader political 
campaigns against this Administration and Democrats.
    It is offensive and I think it should be repudiated.
    Without the political posturing we could find agreement on this 
issue. The Senate certainly did.
    But no--the majority and this panel decided on a different 
approach.
    I guess that is what we can expect from a majority that is blocking 
a vote on common sense background checks but pushing legislation that 
would turn our public lands into shooting ranges.
    I guess that is what we can expect from an organization that had to 
be shamed into removing a bleeding Obama target but still thinks it is 
fine to have a bleeding ex-girlfriend one.
    I've seen the ending to this movie and know where this bill is 
going--so let's move ahead with the grandstanding against this 
Administration and people who dare to question whether there should be 
a gun on every square inch of our soil.
    I yield back.
                                 ______
                                 
    Mr. Bishop. Thank you. We have three bills--three sponsors 
of bills who are here today. So, before we get the votes taken, 
I wanted to make sure we have a chance to hear from them. And 
then one of our speakers has to catch a plane, so we will try 
and put that one out of order, if that is OK with everyone.
    Let me turn first to Chairman Young.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Thank you, Mr. Chairman, and thank you to the 
Ranking Member. Thank you for holding this hearing. I have a 
bill on the Floor that--or, excuse me, in the Committee--that, 
unfortunately or fortunately, the Park Service and I do agree. 
I mean don't everybody die right here, but we do agree on this 
bill. I say there might be something wrong with it.
    But, first, this bill authorizes the Secretary of the 
Interior to issue permits for micro-hydro projects within the 
Denali National Park and Preserve. Additionally, it will 
facilitate a small land exchange between the National Park 
Service and Doyon Tourism, Inc., which owns and operates the 
facilities that take advantage of one of those proposed micro-
hydro projects.
    Currently, the facilities in Kantishna, which are located 
at the end of the 90-mile Park road, operate exclusively off of 
diesel fuel. Not being connected to any grid system, the 
roadhouse must produce all its energy onsite. This means 
trucking thousands of gallons of diesel fuel over a long and 
treacherous Park road. Energy created by this micro-hydro 
project will cut the roadhouse's diesel usage in half, and 
drastically reduce the needs of these trips.
    Down the road in the new Eielson Visitor Center, the 
National Park Service operates a similar micro-hydro project to 
great success. And the roadhouse seeks to take advantage of 
similar technology to help rid their reliance on costly diesel 
fuel. In the 112th Congress, a similar bill passed the House 
and passed out of this Committee by a voice vote.
    Next, this bill would authorize a 7-mile natural gas 
pipeline right-of-way through a small portion of the Park along 
the existing highway right-of-way. This proposed pipeline would 
run along a main highway from Fairbanks to Anchorage, and would 
alleviate the high cost of energy supplies that concerns a 
majority of the Alaskan population. Additionally, if built, the 
National Park Service would tap into the line to alleviate 
their own high energy cost issues.
    In the final days of 112th Congress a similar bill passed 
the Senate by unanimous consent, but was not considered the by 
House before we adjourned.
    Finally, this bill would name the Talkeetna Ranger Station 
after Walter Harper. Walter Harper, an Athabascan Indian, was 
the first person to reach the summit of Mount McKinley, North 
America's highest peak. He accomplished this feat on June 7, 
1913, at the young age of 21. Tragically, he died 5 short years 
later, on a sinking SS Princess Sophia. The Talkeetna Ranger 
Station is home to Denali's mountaineer rangers and the first 
stop of any climb at Mount McKinley. Naming this facility after 
Walter Harper is a fitting tribute, especially as we celebrate 
the 100th birthday of his historic climb.
    In conclusion, this legislation is a win-win that benefits 
the environment and all parties involved. Again, I thank you, 
Mr. Chairman, the Ranking Member, for including this bill in 
today's hearing, and I look forward to working with members of 
the Committee advancing the bill. I yield back.
    Mr. Bishop. Thank you, Congressman Young. I appreciate 
that. Let's turn to Mr. Benishek for his 5 minutes to present 
his bill, if you would.

    STATEMENT OF THE HON. DAN BENISHEK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Dr. Benishek. Thank you, Mr. Bishop. Thanks to the Ranking 
Member, too, Mr. Grijalva. Thanks for taking the time to hold 
this hearing today.
    Like most of you in this room, hunting, fishing, and 
recreational shooting are treasured pastimes in my district. I 
grew up in northern Michigan. And, like many of my 
constituents, spent my summers fishing, my Octobers hunting 
grouse in the UP woods. These traditions, spending quality time 
outdoors with my kids and grandkids, are the kind of things we 
must make sure that are preserved for generations to come.
    This bill, H.R. 1825, the Recreational Fishing and Hunting 
Heritage and Opportunities Act, works to ensure that these 
cherished moments--hunting, fishing, and recreational 
shooting--will be enjoyed by generations to come.
    Mr. Chairman, this bill seeks to create an open-until-
closed policy for sportsmen's use of Federal lands. As you 
know, nearly a quarter of the United States land mass, over 500 
million acres, is managed by the Bureau of Land Management, the 
Fish and Wildlife Service, and the Forest Service. These lands 
are owned by all Americans. It is important that the right to 
fully utilize these lands be ensured for future generations.
    Over the years the legislative ambiguity in the Wilderness 
Act has opened the door for numerous lawsuits around the 
country. Rather than embracing sportsmen and women for the 
conservationalists that they are, anti-hunting and 
environmental groups have pursued an agenda of eliminating 
heritage activities on Federal lands for years. These groups 
look for loopholes in the law to deprive our constituents the 
right to use their own Federal lands.
    Recreational anglers, hunters, and sporting organizations, 
many of whom have endorsed this bill, are supportive of the 
conservation movement, and continue to provide direct support 
to the wildlife managers and enforcement officers at the State, 
local, and Federal level. These dedicated sportsmen, from the 
shore lines of Lake Superior to the Beaches of Coos Bay, 
deserve to know that the lands they cherish will not be closed 
off to future generations.
    This is a bipartisan issue. In fact, Presidents Clinton and 
Bush both issued Executive orders recognizing the value of 
these heritage activities. It is time we finally closed these 
loopholes, firm up the language, and make sure that future 
generations will always be able to enjoy the outdoors hunting, 
fishing, shooting, just taking a walk in the woods.
    I want to encourage all my colleagues today to join me in 
supporting this important piece of common-sense legislation. 
And I yield back the remainder of my time.
    Mr. Bishop. Thank you, Congressman. I appreciate that. Mr. 
Huffman, you have the third bill that we will be hearing today. 
You are recognized for 5 minutes to introduce it.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Chairman Bishop and Ranking Member 
Grijalva, for holding today's hearing on my bill, H.R. 1411, 
the California Coastal National Monument Expansion Act of 2013. 
I am very excited that we are joined today by my constituent, 
Scott Schneider, the President and CEO of Visit Mendocino 
County. When he is not testifying before Congress, Scott works 
to bolster the economic impact of travel and tourism in the 
area, and he spreads the word about all that Mendocino County 
has to offer. As we will hear in his testimony, the California 
Coastal National Monument Expansion Act will not only protect 
our heritage, our national heritage area, it will contribute to 
the growing tourism economy of this region.
    The California National Coastal Monument Expansion Act will 
add the Point Arena-Stornetta Public Lands, approximately 130 
miles north of San Francisco, to the California Coastal 
National Monument. The existing monument is made up of more 
than 20,000 small islands, rocks, and reefs along the 
California coast. And this bill would add the first land base 
connection to the monument.
    Now, make no mistake. H.R. 1411 is a jobs bill. By 
providing lasting national protection, we are making the 
California National Coastal Monument more accessible to 
visitors, and we are raising the visibility of 1,200 acres of 
spectacular Mendocino County coastline.
    The businesses and the civic leaders in the region are 
looking forward to becoming a gateway community for the 
national monument, drawing in new visitors and economic 
activity to the area. Tourism is already the number one source 
of jobs on the Mendocino coast. We get close to 2 million 
annual visitors in the region, and that supports more than 
5,000 jobs, contributes approximately $19 million in State and 
local taxes.
    And that is why the effort to protect this awe-inspiring 
stretch of the Mendocino coast has such broad public support. 
It ranges from State and local elected officials to the 
Manchester Point Arena Band of Pomo Indians, conservation 
groups, business and civic leaders in the community, and local 
government. In addition, hundreds of people in this rural area 
have expressed their support by way of petition.
    This legislation builds on what is already working. The 
bill adds 10 miles of connectivity to the California Coastal 
Trail, and it preserves a sustainable working landscape by 
maintaining the existing ranching, recreation, and research 
uses on these lands. In fact, our legislation specifically 
identifies livestock grazing as an allowed activity within the 
newly designated monument.
    And beyond these lands' importance for the local economy 
and to visitors from around the world, this area is unmatched 
in its environmental value. This bill would help protect 
habitat for numerous species of wildlife found only on this 
stretch of the California coast. It will also protect the 
Garcia River estuary, and 2 miles of the Garcia River itself. 
This is a critical habitat for Coho and Chinook salmon, as well 
as steelhead.
    So, thank you again, Mr. Chairman, for holding the hearing 
today, and for inviting Mr. Schneider to testify. As you can 
tell, this is legislation that will bring significant economic 
benefit and environmental benefit to a part of my district that 
has national significance. And it is also broadly supported. I 
am honored to represent this spectacular place, and I look 
forward to working with you all to move H.R. 1411 forward. I 
yield back the balance of my time.
    Mr. Bishop. Thank you. I appreciate that. Mr. Pearce is not 
here in person to present his bill, but his written statement 
will be added into the record.
    [The prepared statement of Mr. Pearce follows:]
 Prepared Statement of The Honorable Stevan Pearce a Representative in 
           Congress From the State of New Mexico, on H.R. 995
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Subcommittee, thank you for holding this hearing and for inviting me to 
testify in support of H.R. 995, the Organ Mountains National Monument 
Establishment Act. The Organ Mountains are a true natural treasure in 
Southern New Mexico, and one of our State's most pristine, recognizable 
sites. Everyone believes they must be preserved. The Organ Mountains 
are a symbol of our unique culture, which includes hunting, recreation, 
ranching and other outdoor activities. The landscape is emblematic of 
our heritage in the Land of Enchantment, and this bill protects our 
culture, our land, and our livelihood.
    One of the most important aspects of this legislation is the strong 
local support for its end goal. It is imperative that any land 
management declaration have the backing of the local community. 
Ranchers, conservationists, public officials and business owners have 
strong agreement with the aims of this bill. The Hispano Chamber of 
Commerce of Las Cruces and the Anthony Chamber of Commerce support this 
bill. I have submitted for the record letters of support from several 
soil and water conservation districts and other local interested 
parties. Simply put, it is a local solution.
    Unfortunately, we see the ramifications of monument declarations by 
presidential edict and the effect they have not only on the economic 
base of a community, such as the ongoing dispute over cattle grazing in 
the Grand Staircase-Escalante Monument in Utah, but a declaration with 
little public input causes the strain and cynicism between individuals 
and the Federal Government to fester.
    Plus, the U.S. Constitution grants the power to determine land 
management plans to the legislative branch under Article IV. This 
constitutional authority lends more credibility to the legislative 
process as a mechanism for making monument and other determinations. It 
serves as a check on the Federal Government, and keeps it from abusing 
local authorities. The legislative process is a highly democratic 
method of making decisions with long-term policy implications.
    It is in this spirit that I sponsored H.R. 995. It protects the 
Organ Mountains permanently from disposal. The Monument will forever be 
a part of the National Landscape Conservation System. Mineral 
exploration will be banned permanently. It also allows for motorized 
vehicles to stay on existing roads and trails designated for their use, 
allowing the elderly, families with small children and the disabled to 
access this pristine area. It also allows for the use of mechanized 
equipment for standard ranching operations and to make repairs to 
earthen dams for the sake of our watersheds.
    The agricultural community shows strong support for this 
legislation as well. The bill protects current grazing permittees, and 
ensures that future grazing permits will be issued. H.R. 995 injects 
regulatory stability into an industry that is oftentimes left behind in 
the Washington game of special interest posturing. Our local ranchers 
deserve a regulatory framework that protects our environment and their 
interests at the same time.
    Existing water rights are also protected, and Federal water rights 
are not expanded. Private landowners who have property surrounded by 
the monument will have access to their landholdings. The State 
government will continue to have jurisdiction over fish and game 
permitting, so that our sportsmen can continue to enjoy the outdoors.
    In short, the bill creates a framework for responsible recreation 
and expanded access all at once. It protects our resources, while 
guaranteeing that our sportsmen and other outdoor recreational 
activists can enjoy this natural area to the greatest extent possible. 
There are currently 12 national monuments in the State of New Mexico. 
In 11, there are no weapons or hunting allowed. This right to maintain 
our culture must be protected in any management plan, which is why I 
included stronger language permitting hunting and trapping within the 
monument compared to the version of this bill in the 112th Congress.
    Another aspect that the Federal Government must take into account 
is the need to ensure law enforcement personnel can access Federal 
lands in pursuit of criminals and for other emergency response needs. 
The close proximity to the Mexican border makes it even more important 
that we work to keep this area from becoming a drug or human smuggling 
corridor. We see in the Organ Pipe National Monument on the Arizona-
Mexico border that Park Rangers have to carry weapons, and that tours 
are often limited to the daytime with armed Park Service personnel 
guides. Many parts of the Monument are kept off limits from American 
tourists because of the danger of running into members of a drug cartel 
or human smugglers. The environmental degradation of these areas caused 
by gangs leaving trash and human waste behind is disturbing and sad for 
those of us who want to enjoy our natural heritage. Seeing what has 
happened Arizona, and wanting to keep it from happening in New Mexico, 
the Dona Ana County Sheriff, Todd Garrison, has endorsed H.R. 995, 
along with the National Association of Former Border Patrol Officers, 
who are pleased with the more specific language protecting rights of 
law enforcement personnel compared to the version in the last Congress.
    Once again, I would like to thank the Chairman, Ranking Member and 
the rest of the Committee members for the invitation today, and your 
willingness to consider the Organ Mountains National Monument 
Establishment Act once again.
                                 ______
                                 
    Mr. Bishop. Now, Mr. Schneider, wherever you are, whoever 
you are, I understand you have a plane to catch.
    Mr. Schneider. Yes, sir.
    Mr. Bishop. So, if it is all right with everyone else, let 
me have you come right to the microphone, give your testimony. 
Because I think the rest of you may be interrupted by votes, 
which are coming shortly.
    But we appreciate you being here, because that way I don't 
have to be listening to him on the Floor. So thank you very 
much. You are recognized--if you have not been here before, 
same rule. When the clock is in front of you, it will time down 
for the 5 minutes. When it turns yellow, you have a minute 
left. Please stop when it turns red.
    You are recognized. Thank you.

    STATEMENT OF SCOTT SCHNEIDER, PRESIDENT AND CEO, VISIT 
                     MENDOCINO COUNTY, INC.

    Mr. Schneider. Thank you, Chairman Bishop, Ranking Member 
Grijalva, and members of the Subcommittee. Thank you for the 
opportunity to comment on the California Coastal National 
Monument Expansion Act of 2013. My name is Scott Schneider. I 
am President and CEO of Visit Mendocino County, Incorporated. 
Visit Mendocino County is the official Mendocino County tourism 
bureau contracted to market Mendocino County businesses, 
events, and attractions, with the ultimate goal of increasing 
the total economic impact of the travel and tourism industry 
throughout the county.
    Visit Mendocino strongly supports H.R. 1411, an effort to 
protect the Point Arena-Stornetta Public Lands by expanding the 
California Coastal National Monument. We believe that expanding 
the monument will boost our local economy, and this belief is 
widespread, if not unanimous, in the Mendocino business 
community. Earlier this year, over 50 local businesses from our 
rural county signed a letter supporting the proposed expansion.
    The Point Arena-Stornetta Public Lands have been called one 
of the most significant parts of the California coastline. 
These lands are where the Garcia River cross the rugged cliffs, 
rumpled dunes, and rolling meadows of California's coast. This 
area is home to wildlife like sea lions, bobcats, and the rare 
Point Arena mountain beaver. Visitors come not just for the 
views, but to go hiking, fishing, and bird watching.
    Adjacent to the lands is the California Coastal National 
Monument, which stretches along the entirety of the California 
coast to protect the thousands of federally owned rocks and 
islands scattered along the coast. This monument is one of the 
most viewed and yet least recognized national monuments in the 
entire country. Expanding the designation onto land would 
provide countless visitors with a new opportunity to better 
access and better understand this incredibly scenic and unique 
national monument.
    The support for protecting the lands is seemingly 
universal. In fact, I have not heard of a single person who 
opposes this proposal. The business community is supportive. 
The local county board of supervisors is supportive. Cities of 
Point Arena and Fort Bragg are supportive. The Manchester Band 
of Pomo Indians is supportive. Countless community 
organizations are supportive. And rancher Larry Stornetta, 
whose family used to own the public land and who continues to 
graze on the land, is also supportive.
    Just a few months ago a group of elementary school and 
middle school children formed a group called Students 
Protecting the Coast. They produced watercolor paintings of the 
Point Arena-Stornetta Public Lands that they have turned into a 
slide show presentation and used to build even more support for 
the monument proposal.
    In order to fully understand the importance of this bill to 
the local communities throughout Mendocino, one must better 
understand the area in which these lands provide. Mendocino is 
a large, rural county, approximately the size of Rhode Island 
and Delaware, combined. Its population of just over 88,000 
people relies greatly on two major industries: agriculture and 
tourism, as fishing and timber are no longer providing the jobs 
and economic growth they once did in the second half of the 
20th century. In fact, tourism is the area's biggest employer.
    To be clear, our local economy needs help now. The closest 
city to the lands is Point Arena, which has a population of 449 
people. And, as of 2009, the estimated median household income 
in the city was nearly half the statewide average. The addition 
of the lands to the California Coastal National Monument would 
provide an economic boost to cities like Point Arena and 
businesses and taxpayers across the county.
    Tourism throughout Mendocino County already supports, as of 
2011, close to 5,000 jobs and generates over $20 million in 
State and local taxes. We receive close to 2 million visitors 
per year, and about 80 percent of them are from the Bay Area, 
San Francisco Bay Area, and Sacramento regions. Expanding the 
monument to protect the Point Arena-Stornetta Public Lands 
would establish Point Arena as the pre-eminent gateway city to 
the monument. This added visibility and distinction would 
attract even more visitors to the area, and would encourage 
them to stay longer and spend more money.
    Greater visitation would create new jobs and increase the 
already vital tax revenues and tax relief that come from 
visitor spending. Currently, each household that resides in 
Mendocino County receives close to $650 annually of tax relief 
from visitor spending. To many of our businesses and 
communities, the additional help cannot come soon enough.
    Given the incredible natural beauty and cultural 
significance of the area, the benefits that the monument would 
bring to our community and our economy, and the exhaustive 
support from the community, I cannot identify a single reason 
why this proposal should not move quickly through Congress.
    Thank you so much for your time and consideration, and for 
the opportunity to testify on this important legislation.
    [The prepared statement of Mr. Schneider follows:]
    Prepared Statement of Scott Schneider, President and CEO, Visit 
                  Mendocino County, Inc., on H.R. 1411
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Subcommittee, thank you for the opportunity to comment on the 
``California Coastal National Monument Expansion Act of 2013.''
    My name is Scott Schneider. I am the President and CEO of Visit 
Mendocino County, Inc. Visit Mendocino County is the official Mendocino 
County Tourism Bureau, contracted to market Mendocino County 
businesses, events and attractions with the ultimate goal of increasing 
the total economic impact of the travel and tourism industry throughout 
the County.
    Visit Mendocino strongly supports H.R. 1411 and efforts to protect 
the Point Arena-Stornetta Public Lands by expanding the California 
Coastal National Monument. We believe that expanding the monument will 
boost our local economy, and this belief is widespread, if not 
unanimous, in the Mendocino business community. Earlier this year, over 
50 local businesses from our rural county signed a letter supporting 
the proposed expansion.
    The Point Arena-Stornetta Public Lands have been called one of the 
most significant parts of the Mendocino coastline. These lands are 
where the Garcia River crosses the rugged cliffs, rumpled dunes and 
rolling meadows of California's coast. This area is home to wildlife 
like sea lions, bobcats, and the rare Point Arena Mountain Beaver. 
Visitors come not just for the views, but to go hiking, fishing, and 
bird watching.
    Adjacent to the Point Arena-Stornetta Public Lands is the 
California Coastal National Monument, which stretches along the 
entirety of the California coast to protect the thousands of federally 
owned rocks and islands scattered along the coast. This monument is one 
of the most viewed and yet least recognized national monuments in the 
entire country. Expanding the designation onto land would provide 
countless visitors with a new opportunity to better access and better 
understand this incredibly scenic and unique national monument.
    The support for protecting the Point Arena-Stornetta Public Lands 
is seemingly universal. In fact, I have not heard of a single person 
who opposes the proposal. The business community is supportive, the 
local county board of supervisors is supportive, the cities of Point 
Arena and Fort Bragg are supportive, the Manchester Band of Pomo 
Indians is supportive, countless community organizations are 
supportive, and rancher Larry Stornetta, whose family used to own the 
public land and who continues to graze on the land, is supportive.
    Just a few months ago, a group of elementary school and middle 
school children formed a group called Students Protecting the Coast. 
They produced watercolor paintings of the Point Arena-Stornetta Public 
Lands that they have turned into a slideshow presentation and used to 
build even more support for the monument proposal.
    In order to fully understand the importance of this bill to the 
local communities throughout Mendocino, one must better understand the 
area in which these lands preside. Mendocino County is a large rural 
county--approximately the size of Rhode Island and Delaware combined. 
Its population of just over 88,000 people relies greatly on two major 
industries--agriculture and tourism as fishing and timber are no longer 
providing the jobs and economic growth they once did in the second half 
of the 20th century. In fact, tourism is the area's biggest employer.
    To be clear, our local economy needs help now. The closest city to 
the Point Arena-Stornetta Public Lands is Point Arena, which has a 
population of 449 people and, as of 2009, the estimated median 
household income in the city was nearly half the statewide average.
    The addition of the Point Arena-Stornetta Public Lands to the 
California Coastal National Monument would provide an economic boost to 
cities like Point Arena and businesses and taxpayers across the county. 
Tourism on the Mendocino Coast already supports, as of 2011, close to 
5,000 jobs and generates over $20 million in State and local taxes. The 
Mendocino region receives about 1.75 million visitors per year and 
about 80 percent of them are from the Bay Area and the Sacramento 
region.
    Expanding the California Coastal National Monument to protect the 
Point Arena-Stornetta Public Lands would establish Point Arena as the 
pre-eminent gateway city to the monument. This added visibility and 
distinction would attract even more visitors to the area and would 
encourage them to stay longer and spend more money. Greater visitation 
would create new jobs and increase the already vital tax revenues and 
tax relief that come from visitor spending. Currently, each household 
receives close to $650 of tax relief annually from visitors. To many of 
our businesses and communities, this additional help cannot come soon 
enough.
    Given the incredible natural beauty and cultural significance of 
the area, the benefits that the monument would bring to our community 
and our economy, and the exhaustive support from the community, I 
cannot identify a single reason why this proposal shouldn't move 
quickly through Congress.
    Thank you for your time and consideration and for the opportunity 
to testify on this important legislation.
                                 ______
                                 
    Mr. Bishop. Thank you very much for being with us. Are 
there questions for this witness? Mr. Grijalva, do you have 
any?
    Mr. Grijalva. I have no questions.
    Mr. Bishop. Mr. Benishek? To this witness? Mr. Huffman? I 
am assuming you do.
    Mr. Huffman. I do, one.
    Mr. Bishop. Please.
    Mr. Huffman. Thank you, Mr. Chair. Mr. Schneider, you have 
made the case that the Point Arena-Stornetta Public Lands 
already are providing economic benefits, and that permanently 
protecting these lands will further boost the local economy. I 
wonder if you could perhaps name some of the other local 
businesses that are joining you in supporting this proposal and 
explain a little more about how expanding the California 
Coastal National Monument would actually help them and create 
jobs and support the local economy.
    Mr. Schneider. Of course. So, to answer that question, 
businesses from all arrays throughout the community are 
supportive. Schools, local government, all the attractions--
restaurants, hotels--obviously, the environmental groups are 
all very supportive of this proposal.
    One of the things that makes Mendocino County so unique is 
the accessibility of the beauty and the lands throughout the 
coast. In many areas of at least the California coastline, it 
is very beautiful, but you don't have a lot of places to 
access. And one of the ways that we drive visitors to our 
location is due to that physical access. They can come, they 
can bring their families, bring their loved ones, and enjoy 
such a beautiful, beautiful place. And having these lands as 
part of the national monument would provide that physical 
connection to the monument itself.
    Mr. Huffman. Thank you, Mr. Chair. I yield back.
    Mr. Bishop. Thank you. With that, we appreciate your time, 
we appreciate your willingness to come out here and to give us 
this testimony.
    Mr. Schneider. Thank you very much.
    Mr. Bishop. Thank you, I appreciate it. Since I have no 
idea when this will happen on the Floor, let me invite the 
panel up and we will go through as much as is possible before 
votes take place, if that is OK.
    So, if I could, I would like to invite Carl Rountree, who 
is the Director of the National Landscape Conservation System; 
William Horn, who is the Director of Federal Affairs at the 
U.S. Sportsmen's Alliance; Susan Recce, who is the Director of 
the Division of Conservation and Wildlife and Natural Resources 
at the National Rifle Association; Melissa Simpson, the 
Director of Governmental Affairs and Science Based Conservation 
with Safari Club International. And I believe that is the end 
of this panel.
    What we will do is try to do this in some kind of order for 
each particular bill. Let me start, if I could, dealing with 
Mr. Benishek's bill, and turn, first of all, to Mr. Horn. We 
will start with that sportsmen's bill. Mr. Horn, you are one of 
those who is recognized as an authority on law affecting 
hunting and fishing, and have been Assistant Secretary for Fish 
and Wildlife and Parks with the Department of the Interior. We 
will forgive you for that. We are eager to hear your testimony.
    The same drill for everybody who is up there. Five minutes, 
yellow, go real fast, and stop at red. Thank you. Mr. Horn.

STATEMENT OF WILLIAM P. HORN, DIRECTOR OF FEDERAL AFFAIRS, U.S. 
                      SPORTSMEN'S ALLIANCE

    Mr. Horn. Good morning, Mr. Chairman. Thank you. My name is 
William Horn, representing the U.S. Sportsmen's Alliance. And 
we strongly support enactment of H.R. 1825. My comments also 
reflect years of fishing and hunting on public lands, my tenure 
at the Interior Department under President Reagan, and over 20 
years litigating against anti-hunting activists in Federal and 
State courts.
    H.R. 1825 establishes that fishing, hunting, and shooting 
are important traditional activities on national forests and 
public lands administered by BLM. And this express recognition 
will help fend off growing attacks from radicals committed to 
running anglers and hunters off of our public lands.
    Now, existing law lacks the type of recognition provided by 
H.R. 1825. For example, only a small part of the 1960 Multiple 
Use and Sustained Yield Act, which governs forest management, 
references outdoor recreation or wildlife and fish purposes. 
And that type of general language has been insufficient to 
prevent Federal courts from ordering the Forest Service to 
consider banning hunting because the sound of distant gunfire 
might upset the tender sensibilities of an anti-hunter.
    Similarly, the 1976 Federal Land Policy and Management Act 
makes no specific references whatsoever to fishing or hunting. 
Now, similar statutory silence produced the 1997 Refuge 
Improvement Act, which emanated from this Committee and passed 
the House with only one dissenting vote in 1997, before being 
signed by President Clinton. Prior to that statute, earlier 
refuge bills or Administration acts had not specifically 
provided for hunting or fishing because the authors of those 
prior bills, hunters all, saw no need, as at that time there 
was no animal rights movement, and the notion that hunting 
could be barred on the refuge system was simply 
incomprehensible.
    But growing anti-hunting activism convinced Congress to 
codify in law that hunting and fishing were legitimate 
activities on refuge lands, and hunting merited designation as 
a priority public use. The Sportsmen's Alliance urges Congress 
to provide similar statutory protection for hunting and fishing 
on Forest and BLM lands by enacting H.R. 1825.
    Now, one of the clever legal ploys being used to attack our 
hunting heritage has been to treat continuation of fishing and 
hunting on BLM and Forest lands as a new decision or action 
subject to judicial challenge via the Federal Administrative 
Procedure Act. The bill provides a simple solution. It would 
have Forest and BLM lands deemed as open to fishing and hunting 
so no new APA action needs to precede continuation of those 
activities. The agencies remain free to impose those 
restrictions they determine are necessary, but an open-until-
closed regime will be far more efficient, save millions in 
administrative expenses, and insulate anglers and hunters from 
unwarranted lawsuits.
    This bill also restores the legal status quo regarding the 
1964 Wilderness Act by correcting three misinterpretations of 
that Act handed down by the ninth circuit court of appeals. In 
each case, the ninth circuit disregarded years of precedent, 
reversed a district court ruling, and overruled the judgments 
of the Federal agency. The corrections will protect wildlife 
conservation and fishing and hunting access.
    However, the bill very plainly and expressly does not 
permit or facilitate any commodity uses, motorized access, or 
road construction in wilderness areas, contrary to 
misrepresentations by bill opponents. Those misrepresentations 
are red herrings, as anyone can see by looking at the specific 
provisos included in Sections 4(e)1 and 4(e)2. And I certainly 
hope that the current version of the bill will put this issue 
to bed and demonstrate quite plainly that there is no threat to 
wilderness integrity or wilderness management arising from the 
provisions in this bill.
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to appear today on behalf of H.R. 1825. The 
Sportsmen's Alliance is committed to working with the Committee 
and Congress to assure prompt, favorable action on this 
important legislation. Thank you.
    [The prepared statement of Mr. Horn follows:]
 Prepared Statement of William P. Horn, U.S. Sportsmen's Alliance, on 
                               H.R. 1825
    Mr. Chairman: My name is William P. Horn representing the U.S. 
Sportsmen's Alliance (USSA). Thank you for the opportunity to appear 
today and support enactment of H.R. 2834. USSA was organized in 1977 
for the purposes of protecting the American heritage to hunt, fish, and 
trap and supporting wildlife conservation and professional wildlife 
management. It pursues these objectives at the Federal, State, and 
local level on behalf of its over 1.5 million members and affiliates.
    We commend the sponsors of the Recreational Fishing and Hunting 
Heritage and Opportunities Act and strongly recommend its prompt 
enactment by the Congress. The bill clearly establishes that fishing, 
hunting, and recreational shooting are important traditional activities 
that have a key place on our National Forests, administered by the U.S. 
Forest Service, and public lands administered by the Bureau of Land 
Management (BLM). Express legislative recognition that these activities 
are legitimate and valuable will help fend off the growing attacks from 
animal rights radicals and others committed to running anglers and 
hunters off our public lands. Clear statutory support will also signal, 
and direct, the land management agencies to exercise their discretion 
in a manner that facilitates these traditional activities.
    Existing law lacks this recognition and clarity. For example, only 
part of the 1960 Multiple Use Sustained Yield Act, which governs 
Forests, references ``outdoor recreation'' and ``wildlife and fish 
purposes.'' That general language has been insufficient to protect 
hunting and fishing: it has not stopped the Forest Service from 
proposing planning regulations that give fishing and hunting (and 
conservation) short shrift nor has it prevented Federal courts from 
ordering the same agency to consider banning hunting because the sound 
of gunfire might upset the tender sensibilities of a bird watcher. 
Similarly, the 1976 Federal Land Policy and Management Act (FLPMA) 
(which is the ``organic act'' for BLM public lands) makes no specific 
references to fishing or hunting. We are persuaded that continued 
failure to expressly recognize the importance of these activities on 
Forest and BLM lands, and provide for continuation of such uses, sets 
the stage for an activist judge in San Francisco, New York City, or 
D.C. to rule in favor of some animal rights plaintiff and ban angling 
or hunting on these public lands.
    This situation is similar to the circumstances that produced the 
1997 Refuge Improvement Act (which passed the House with only one 
dissenting vote and was signed into law by President Clinton). Earlier 
refuge administration statutes passed in the 1950's and 1960's had not 
specifically provided for hunting or fishing; the authors of those 
bills--hunters all--saw no need as there was no animal rights movement 
and no clamor then to close hunting on Teddy Roosevelt's wildlife 
system. The notion that hunting could be barred on the Refuge system 
was simply incomprehensible. By the mid-90's, however, there had been a 
string of anti-hunting lawsuits to bar hunting on refuge lands. Even 
though President Clinton issued an Executive order recognizing the 
value of continued hunting on the Refuge system, Congress saw the need 
to codify such recognition in statute stating clearly that hunting and 
fishing were legitimate activities on refuge lands, the managing agency 
had a duty to facilitate these activities, and fishing and hunting 
merited designation as priority public uses in the law. After the bill 
was signed by President Clinton, virtually all of the anti-hunting 
lawsuits stopped.
    President Bush in 2008 issued a similar hunting Executive order 
(EO) for public lands. Just as the Clinton EO was insufficient to guard 
hunting on refuges, the Bush EO is not enough to protect hunting and 
fishing on Forest and BLM lands. Accordingly, we urge this Committee, 
and Congress, to provide needed statutory protection for Forest and BLM 
lands by enacting H.R. 1825.
    USSA has been urging Congress to pass comparable legislation since 
1998. Initially we were told there was no need and previous versions of 
this bill were dismissed as ``solutions in search of a problem.'' The 
intervening years have taught of the sporting community that there is a 
problem. Decisions like the 6th Circuit's Meister case exposed how 
quickly hunting can be lost. Activists have mounted efforts to preempt 
State management and bar bear hunting on public lands. Clever lawsuits 
seek to misuse Federal environmental laws to restrict or ban fishing 
and hunting on federally administered lands. The hostile animal rights 
movement has grown and uses its ever swelling war chest to harass 
hunters and anglers. And an increasingly urban nation--wholly 
disconnected from America's outdoor heritage--either doesn't care or 
joins in the hostility. Continued silence in the law regarding the 
legitimacy and contributory roles of fishing and hunting on Forest and 
BLM lands will ultimately cause the loss of these activities on over 
500 million acres of our public lands.
    This silence must be corrected and H.R. 1825 does precisely that. 
It plainly recognizes fishing, hunting and shooting as legitimate and 
important activities on Forest and BLM lands. It directs the agencies 
to exercise their discretion, consistent with the other applicable law, 
to facilitate fishing, hunting (and trapping as a hunting activity) and 
shooting. This duty extends to the preparation of land planning 
documents required by the National Forest Management Act and FLPMA. No 
one will be able to argue to an agency or a court, with a straight 
face, that fishing and hunting have no place on these public lands 
following enactment of this bill.
    One of the clever ploys to indirectly attack these activities has 
been to treat continuation of fishing and hunting as a ``new'' decision 
or action requiring completion of a full blown environmental impact 
statement (EIS). Antis then file suit contending the EIS was inadequate 
and that the decision to ``open'' an area to fishing or hunting must be 
suspended until the EIS is made adequate. H.R. 1825 provides a simple 
solution: Forest and BLM lands are considered ``open'' to fishing and 
hunting so no new EIS or other document needs to precede continuation 
of these traditional activities. The Forest Service and BLM remain free 
to impose those restrictions and closures that they determine are 
necessary (if supported by facts and evidence) but an ``open until 
closed'' regime will be far more efficient, save millions of dollars of 
administrative expense, and insulate fishing and hunting from 
unwarranted indirect attacks.
    USSA strongly applauds other features of the bill that facilitate 
wildlife conservation, ensure fishing and hunting opportunities, and 
help the agencies direct finite personnel and dollar resources to on-
the-ground conservation rather than more planning documents. In 2003, 
antis sued to stop hunting on 60 wildlife refuge units arguing that 
even though the Fish and Wildlife Service had done EIS's or 
environmental assessments (EA's) authorizing hunting on each unit, FWS 
had not (the antis claimed) done a sufficient ``cumulative effects 
analysis'' on the overall effects of hunting on the entire Refuge 
system. We intervened in the case with Ducks Unlimited, NRA, and SCI 
and argued--along with FWS--that deer hunting on the Bond Swamp unit in 
GA, woodcock hunting in the Canaan Valley, WV refuge, and duck hunting 
on ND units for example had such limited and unconnected effects that a 
``cumulative effects'' review made no sense. Moreover, Congress in the 
1997 Refuge Improvement Act made it clear that unit-by-unit 
Comprehensive Conservation Plans (CCP's) dovetailed with EIS or EA 
documents, would be sufficient to approve the priority public uses of 
fishing and hunting. A D.C. judge disagreed, ordered FWS to prepare the 
cumulative effects analysis, and FWS spent years and countless hours of 
personnel time and money engaging in this superfluous paper exercise--
using precious dollars that would have been better spent on actual 
wildlife conservation and refuge management. H.R. 1825 reiterates the 
intent of the 1997 Act that FWS need not prepare unnecessary, costly 
cumulative effects analyses to continue to open refuge units to fishing 
and hunting and ensures that anti-hunting plaintiffs cannot capitalize 
on the D.C. court ruling to collect even more fees for their lawyers.
    Section 4(e) of the bill also restores the status quo regarding the 
1964 Wilderness Act that existed between 1964 and 2005. For example, 
some refuge units are overlaid with Wilderness designations. The 1964 
Act--section 4(a) to be precise--specifies that Wilderness purposes 
``are hereby declared to be within and supplemental to'' the purposes 
of the underlying land unit. In the case of refuges, that plainly means 
a unit is Wildlife Refuge first and a Wilderness second. In case of a 
conflict, the wildlife conservation purpose and mission of the Refuge 
system would be primary and Wilderness purposes secondary. That was the 
state of the law until recent 9th Circuit rulings in the Kofa Refuge 
case. Kofa was established by President Franklin Roosevelt with the 
primary purpose of conserving desert bighorn sheep. Over the years, 
FWS, the Arizona Department of Game and Fish and conservationists 
learned that water supplies are the primary factor limiting sheep 
populations. To enhance the bighorn population and provide greater 
genetic diversity to assure long term survival, the parties constructed 
during the 1980's small water catchment basins in Kofa to retain 
precious rain water and keep it from simply sinking into the sand. 
These small unobtrusive basins became important oases for the sheep 
(and other wildlife) and the population prospered.
    Wilderness activists were upset that some of these small basins 
were situated in parts of Kofa designated as Wilderness by Congress in 
1990 (after the basins had been built). Last year two 9th Circuit 
judges disregarded the Wilderness Act ``supplemental purposes'' 
language, held that Kofa is Wilderness first and Refuge second, and 
ordered FWS that the water basins had to go unless the agency could 
demonstrate that the basins were ``necessary'' to fulfill Wilderness 
purposes. These legal conclusions are simply wrong, must be corrected 
by Congress and section 4(e) does just that.
    The 1964 Act also allows a variety of activities in Wilderness 
areas when ``necessary'' to assist wilderness purposes. For decades, 
agencies like BLM and the Forest Service interpreted this to allow a 
variety of outdoor recreational activities including horseback trips. 
But activists disagreed and sued arguing that horseback trips were not 
``necessary.'' The 9th Circuit agreed and has made the ``necessary'' 
finding much more difficult for both recreation and conservation 
actions (e.g., Kofa, Tustemena Lake case). USSA believes it is only a 
matter of time before antis go to court to argue that neither fishing 
nor hunting is ``necessary'' in Wilderness areas. We have every reason 
to believe that hostile Forest Service or BLM political personnel, or 
the 9th Circuit, will buy this bogus argument and impose new 
restrictions on anglers and hunters in Wilderness areas. Rather than 
wait--and worry--we urge Congress to stop this nonsense and enact 
corrective legislation like H.R. 1825.
    Thank you again for the opportunity to appear on behalf of the 
Recreational Fishing and Hunting Heritage and Opportunities Act. USSA 
is committed to working with the Committee to assure prompt favorable 
action on this important legislation.
                                 ______
                                 
    Mr. Bishop. Thank you for your testimony. Ms. Recce, you 
are the Conservation Director at the NRA?
    Ms. Recce. Yes, sir.
    Mr. Bishop. And we are happy to have you here. And we 
recognize you for 5 minutes now.

 STATEMENT OF SUSAN RECCE, DIRECTOR, DIVISION OF CONSERVATION, 
   WILDLIFE AND NATURAL RESOURCES, NATIONAL RIFLE ASSOCIATION

    Ms. Recce. Thank you very much, Mr. Chairman. The NRA 
appreciates the invitation to testify today on legislation that 
we believe is critical to securing the future of our hunting, 
fishing, and recreational shooting heritage on Federal public 
lands. The NRA endorses H.R. 1825, as we did in September of 
2011, when this Subcommittee held a hearing on the predecessor 
bill, H.R. 2834.
    Just slightly over a year ago, H.R. 2834 passed the House 
of Representatives by a substantial margin, as part of the 
Sportsmen's Heritage Act. Opponents of the bill at the time 
argued that the legislation opened the door to prohibited 
activities in wilderness areas like motorized recreation and 
road construction. And just as Mr. Horn just testified, 
language has been included in H.R. 1825 to clarify that 
prohibited activities under the Wilderness Act won't be allowed 
in this legislation.
    Opponents also argued that the bill would open a national 
park or a unit of the national park system to hunting, where it 
was not specifically authorized by Congress. Although this was 
not the intent of the bill, language is included in H.R. 1825 
to clarify that it does not override congressional 
authorization.
    Of importance to NRA is that the bill will secure our 
future by legislatively recognizing these legitimate and 
traditional activities. It does so by directing the Bureau of 
Land Management and the Forest Service to provide for hunting, 
fishing, and recreational shooting opportunities within certain 
specified guidelines.
    The cornerstone of the legislation is that the open-unless-
closed policy that operates on BLM and Forest Service lands for 
hunting, fishing, and recreational shooting will be statutorily 
affirmed. H.R. 1825 encourages proactive management of these 
legitimate and traditional public uses by ensuring they are 
responsibly addressed in land management plans, and it requires 
that the two agencies, Forest Service and BLM, evaluate how 
their plans will affect these activities. Such evaluations are 
rarely done in the Federal planning process. And all too often 
it is impossible to determine how such decisions will affect 
our traditional activities.
    The bill will remove barriers to providing safe and 
responsible public use of Federal lands, and will also prevent 
sudden and arbitrary closures of public lands to sportsmen and 
women.
    The bill supports Executive Order 13443, which directs the 
agencies to facilitate the expansion and enhancement of hunting 
opportunities and the management of game species and their 
habitat.
    We believe H.R. 1825 is critical to restoring congressional 
intent in laws related to hunting and wildlife conservation 
that court rulings have misconstrued. The bill also ensures 
that land designations like BLM and Forest Service wilderness 
cannot, by designation alone, close such lands to hunting, 
fishing, or recreational shooting.
    It also removes an unnecessary and costly layer of review 
for hunting programs on refuge lands. This was brought about by 
anti-hunters who continue to look for any opportunity to throw 
road blocks in front of hunting on wildlife refuges. The 
unnecessary environmental reviews do nothing but exacerbate the 
backlog of operation and maintenance needs of the refuge 
system, which amounts to hundreds of millions of dollars.
    The NRA looks forward to early passage of the bill in 
Committee and on the House Floor, and we hope that in this year 
it will be signed into law.
    Thank you again for the opportunity to testify.
    [The prepared statement of Ms. Recce follows:]
Prepared Statement of Susan Recce, Director, Conservation, Wildlife and 
      Natural Resources, National Rifle Association, on H.R. 1825
    Mr. Chairman, the National Rifle Association (NRA) appreciates the 
invitation to testify today on legislation that is critical to securing 
the future of our hunting, fishing, and recreational shooting heritage 
on Federal public lands. The NRA endorses H.R. 1825 as we did in 
September 2011 when this Subcommittee held a hearing on the predecessor 
bill, H.R. 2834.
    Just slightly over a year ago, H.R. 2834 passed the House of 
Representatives by a substantial margin as part of the Sportsmen's 
Heritage Act. Those voting against the bill listened to opponents who 
argued that the legislation would open the door to prohibited 
activities like motorized recreation and road construction on lands 
designated as wilderness. While nothing in H.R. 2834 amended the 
Wilderness Act, Congressman Benishek has added language to H.R. 1825 
making that crystal clear.
    Equally specious were arguments that H.R. 2834 would open national 
parks or other units of the National Park System to public uses not 
authorized by Congress. Although H.R. 2834 would not have opened the 
Park System to unauthorized uses, Congressman Benishek has nevertheless 
included language in H.R. 1825 that states ``Nothing in this Act shall 
affect or modify management or use of units of the National Park 
System.''
    This should assure the anti-hunting critics of the original bill, 
that neither H.R. 2834 nor the newly introduced H.R. 1825 is a veiled 
attempt to allow currently prohibited or unauthorized uses of Federal 
public lands. The new language should clear the way for even greater 
support in the House of Representatives and remove the same obstacles 
that were placed before it in the Senate in the last Congress.
    Of importance to the NRA is what the bill will do to secure the 
future for sportsmen and women on our Federal public lands.
    H.R. 1825 accomplishes a number of important objectives:

    <bullet>  It recognizes the rightful place of hunting, fishing and 
recreational shooting on Federal public lands.
    <bullet>  It recognizes the importance of these activities to our 
system of scientifically managed wildlife.
    <bullet>  It directs the Bureau of Land Management (BLM) and the 
U.S. Forest Service (USFS) to provide for hunting, fishing and 
recreational shooting opportunities within specified guidelines.
    <bullet>  It affirms by statute the existing ``open unless closed 
policy'' for hunting, fishing and recreational shooting on BLM and USFS 
lands.
    <bullet>  It ensures that these legitimate and traditional public 
uses are responsibly addressed in land management plans.
    <bullet>  It supports Executive Order 13443 titled ``Facilitation 
of Hunting Heritage and Wildlife Conservation'' that directs the 
relevant Federal agencies to ``facilitate the expansion and enhancement 
of hunting opportunities and the management of game species and their 
habitat.''
    <bullet>  It removes barriers to providing safe and responsible 
public use of Federal lands.
    <bullet>  It restores Congressional intent in laws related to 
hunting and wildlife conservation that court rulings have misconstrued.

    H.R. 1825 provides the security we need. It will encourage 
proactive management of hunting, fishing and recreational shooting and 
it will prevent sudden and arbitrary closures of public lands to 
sportsmen and women. BLM and USFS land managers will not be able to 
restrict or close land to hunting, fishing, or recreational shooting 
unless it is determined that the action is necessary and reasonable, 
supported by sound science and advanced through a transparent public 
process. This removes bias and personal agendas from the Federal 
management of legitimate and traditional public uses.
    The NRA has long been involved in issues related to sportsmen's 
access to our Federal public lands. Beginning in 1996, the NRA has 
chaired a Roundtable of representatives from the BLM, USFS, Fish and 
Wildlife Service (FWS) and national hunting, wildlife conservation, and 
shooting sports organizations. The Roundtable was created by a 
Memorandum of Understanding for the purpose of resolving issues and 
enhancing opportunities related to hunting, fishing and recreational 
shooting. Fifteen years of experience has clearly defined what is 
achievable by working with our Federal agency partners and what can 
only be achieved through legislation, specifically through passage of 
H.R. 1825.
    Land management plans guide decisions on how Federal land is 
managed for at least 15 years into the future and are only changed 
through plan amendments. Most often these plans are silent about the 
impacts of various management scenarios on hunting, fishing and 
recreational shooting. It is a public process that is not transparent 
to sportsmen and women. Large sections of public land and well-
travelled roads can be closed without regard to the impact on the 
displaced hunter, angler or shooter.
    H.R. 1825 guarantees sportsmen and women their rightful place on 
their Federal public lands now and into the future. It requires that 
the effects of management plans on opportunities to engage in hunting, 
fishing and recreational shooting be evaluated.
    Americans need places to target shoot. In much of the West, the 
only places for informal shooting are found on BLM and USFS lands. 
Informal shooting sites that were once in remote locations are now 
being threatened by encroaching development and conflict with growing 
numbers of recreationists. It is critical that recreational shooting be 
addressed in land management plans in order to identify and preserve 
areas where safe shooting can occur.
    However, the BLM and the USFS both claim that they are unable to 
designate such areas because it imposes an undue liability against the 
United States in spite of the fact that recreational shooting has a 
record of being one of the safest activities on Federal public lands. 
This has resulted in unwarranted roadblocks to the development of 
shooting ranges and to designation of safe shooting areas. H.R. 1825 
removes these roadblocks by removing the (perceived) liability issue.
    H.R. 1825 retains an important provision of the earlier bill with 
respect to reporting requirements. The Federal land managers have to 
demonstrate coordination with the affected State fish and wildlife 
agency before closing, withdrawing, changing a classification or the 
management status of 640 or more contiguous acres. It is important to 
have State involvement because Federal land closures and restrictions 
transfer the management responsibility to the State to provide for the 
needs of the displaced recreating public.
    H.R. 1825 removes a land management planning requirement that could 
close suitable forest lands to hunting, fishing and recreational 
shooting if adjacent State other Federal lands also provide for these 
public uses. The effect of such a requirement is to unnecessarily and 
unreasonably close public land to the public and at that same time, 
burden the States with the Federal agencies' responsibilities for 
providing recreational opportunities.
    The NRA supports language ensuring that the designation of Federal 
land as wilderness, wilderness study areas, primitive and semi-
primitive areas under the management of the BLM and USFS cannot, by 
designation alone, close such lands to hunting, fishing and 
recreational shooting. H.R. 1825 also makes an important statement that 
the primary purpose for which a unit of Federal land was established 
guides its management and that wilderness overlay cannot materially 
interfere or hinder that guidance.
    And lastly, the NRA supports language that reinforces Congressional 
intent in the National Wildlife Refuge Improvement Act requiring 
hunting and fishing programs to be compatible with the purposes for 
which the specific refuge was established and with the mission and 
purposes of the National Wildlife Refuge System. Litigation by anti-
hunting organizations and a subsequent court ruling resulted in an 
additional layer of analysis being imposed upon the agency.
    This additional layer of review is unnecessary and costly to the 
FWS which is already struggling with huge backlogs in operation and 
maintenance needs within the Refuge System. The compatibility test 
provides sufficient assurance that hunting and fishing programs will 
not have adverse environmental impacts. The only desire of the 
plaintiffs was to find some other means of grinding to a halt the FWS' 
ability to open refuges to hunting and fishing and enhancing existing 
programs.
    In conclusion, the NRA wholeheartedly supports H.R. 1825 because it 
legislatively recognizes the legitimate and traditional activities of 
hunting, fishing and recreational shooting on Federal public lands. It 
safeguards these activities from prejudicial and discriminatory 
treatment. It requires the Federal land manager to be proactive in 
managing these activities through the land management planning process. 
It makes administrative decisions that close or significantly restrict 
these activities to be anchored in a transparent public process and 
removes administrative and judicial roadblocks that obstruct sound and 
responsible management of recreation and wildlife resources.
    The NRA looks forward to early passage of the bill in Committee and 
in the House of Representatives and that in this year it will be signed 
into law.
    Thank you, again, for the opportunity to testify on H.R. 1825.
                                 ______
                                 
    Mr. Bishop. I appreciate that. Thank you. Ms. Simpson, I 
think the Safari Club has taken a lead in science based 
conservation strategies. We welcome you here. We recognize you 
for 5 minutes.

STATEMENT OF MELISSA SIMPSON, DIRECTOR OF GOVERNMENTAL AFFAIRS 
   AND SCIENCE BASED CONSERVATION, SAFARI CLUB INTERNATIONAL

    Ms. Simpson. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before you today to share the views of 
SCI in support of H.R. 1825.
    SCI believes that Federal lands should be managed under the 
principles of multiple use. The opportunity to hunt and fish on 
Federal lands should be a priority in every land and resource 
management plan. According to data from the U.S. Fish and 
Wildlife Service, these activities generated $90 billion in 
2011, fueling our rural economies in a time of economic 
recession. H.R. 1825 is designed to provide Federal land 
managers and the hunting public with the tools necessary to 
defend these recreational opportunities from attacks from those 
who either do not appreciate or do not understand the positive 
role that hunting and fishing play on Federal land.
    Rest assured, just as my colleagues have mentioned here 
today, H.R. 1825 does not create hunting, fishing, or 
recreational shooting opportunities where they are not already 
authorized. The bill does not remove Wilderness Act protections 
from lands properly designated as wilderness, nor does it 
authorize motorized vehicle use, or the development of 
permanent roads in wilderness areas. The bill simply protects 
congressionally authorized activities from legal challenges 
that seek to interfere with statutorily authorized hunting, 
fishing, and recreational shooting on Federal land.
    The threat to hunting, fishing, and recreational shooting 
comes not only from the anti-hunting public, but it also comes, 
at times, from within the Federal agencies themselves. There is 
a growing concern among the sportsmen's community that fewer 
and fewer agency personnel have firsthand experience of these 
activities. When given discretion in the planning for Federal 
public lands, Federal public land managers often fail to 
recognize and afford appropriate, adequate hunting, fishing, 
and recreational shooting opportunities on the lands they 
administer.
    In some cases, agency personnel have sought to impose 
unnecessary and unfair restrictions to hunters and shooters. 
For example, in 2011 the BLM attempted to adopt a policy that 
would have placed needless limitations on opportunities for 
recreational shooting on BLM land. Fortunately, the hunting and 
shooting community was able to quickly band together to prevent 
adoption of that policy.
    More recently, the Forest Service proposed planning 
directives designed to facilitate the agency's 2012 planning 
rules. Like the rules themselves, the draft directives leave 
hunting and fishing at risk of being crowded out by other types 
of recreational activities.
    In August of 2000, America's leading wildlife conservation 
organizations met to identify how to best work collaboratively 
with the Federal land management agencies. These organizations 
formed the American Wildlife Conservation Partners, a 
consortium of over 40 organizations at the time representing 4 
million hunters; 21 of those organizations have submitted a 
letter in support of this legislation today to the 
Subcommittee.
    The impetus for this gathering of hunting organizations was 
to deal with the perception that the Federal land management 
agencies were not open to conversations with the hunting 
community. The hunting community put together a list of 
recommendations called, ``Wildlife for the 21st century,'' they 
presented those recommendations to President George W. Bush, as 
well as to President Barack Obama. In the 13 years since the 
AWCP has engaged the Administration, sportsmen and women have 
tirelessly worked to resolve the same ongoing issues with the 
Federal land management agencies.
    Despite the fact that we have an Executive order from 
President Bush, we have had a White House conference that 
developed 52 recommendations for implementing hunting and 
fishing opportunities on Federal lands, we still find ourselves 
here today with the same struggle.
    And that is why we are asking for your support of this 
important legislation. Thank you.
    [The prepared statement of Ms. Simpson follows:]
Prepared Statement of Melissa Simpson, Director of Government Affairs, 
                Safari Club International, on H.R. 1825
    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to appear before you today to share my views, the views of 
Safari Club International and the hunting community, all of whom 
support H.R. 1825, the Recreational Fishing and Hunting Heritage and 
Opportunities Act.
    My name is Melissa Simpson. I serve as the Director of Government 
Affairs for Safari Club International (SCI). SCI's missions are 
protecting the freedom to hunt, and promoting wildlife conservation 
worldwide. SCI works locally, nationally, and globally to protect 
hunting opportunities and strengthen the link between hunting, 
sustainable use, and wildlife conservation.
    SCI believes that Federal lands should be managed under the 
principles of multiple-use. Outdoor recreation, including hunting and 
fishing, have been and should continue to be a primary use of Federal 
lands and are fully compatible with other uses. According to data from 
the U.S. Fish and Wildlife Service, these activities generated $90 
billion in 2011, fueling our rural economies. The opportunity to hunt 
and fish on Federal lands should be a priority in every land and 
resource management plan. H.R. 1825 is designed to provide Federal land 
managers and the hunting public with the tools necessary to defend 
these recreational opportunities from attacks from those who either do 
not appreciate or do not understand the positive role that hunting and 
fishing play on Federal land.
    Rest assured that H.R. 1825 does not create hunting, fishing or 
recreational shooting opportunities where they are not already 
authorized. The bill does not remove Wilderness Act protections from 
lands properly designated as Wilderness, nor does it authorize 
motorized vehicle use, or the development of permanent roads in 
Wilderness Areas. This bill simply protects congressionally authorized 
activities from legal challenges that seek to interfere with 
statutorily authorized hunting, fishing and recreational shooting on 
Federal land.
    For example, H.R. 1825 corrects a legislative ambiguity that opened 
the door to almost a decade of litigation brought by anti-hunting 
groups who tried to stop hunting throughout the National Wildlife 
Refuge System. This bill removes a redundant planning requirement for 
the provision of hunting opportunities in National Wildlife Refuges. It 
not only protects hunting from vicious and costly legal attacks, but 
conserves Federal resources at a time when Federal agencies are seeking 
ways to eliminate unnecessary spending.
    The bill also makes it more difficult for litigants to interfere 
with conservation efforts designed to benefit game species. For 
example, in a lawsuit concerning the Kofa National Wildlife Refuge, 
some groups challenged the use of artificial water developments 
designed to benefit a population of Desert Bighorn Sheep that serve as 
a seed population for sheep restoration efforts throughout the West.
    Most of this bill's provisions focus exclusively on U.S. Forest 
Service and Bureau of Land Management lands. Although these are public 
lands where hunting, fishing and recreational shooting are statutorily 
authorized, anti-hunting groups and others have relied on statutory 
loopholes and ambiguities to whittle away at the existing opportunities 
on these Federal lands. For example, right now, a litigant in Federal 
district court in Michigan is trying to convince the court that his 
recreational interests in cross-country skiing should deprive the 
hunting community of access to and use of portions of the Huron and 
Manistee National Forests. The provisions in this bill could help 
provide the Forest Service with an important defense against this type 
of legal challenge.
    The threat to hunting, fishing and recreational shooting comes not 
only from the anti-hunting public, but also, at times, from within the 
agencies themselves. There is a growing concern that fewer and fewer 
agency personnel have first-hand experience of these activities. When 
given discretion in the planning for Federal public lands, Federal 
public land managers often fail to recognize and afford appropriate and 
adequate hunting, fishing and recreational shooting opportunities on 
the lands that they administer. In some cases, agency personnel have 
sought to impose unnecessary and unfair restrictions on hunters and 
shooters. For example, in 2011, the Bureau of Land Management attempted 
to adopt a policy that would have placed needless limitations on 
opportunities for recreational shooting on BLM land. Fortunately, the 
hunting and shooting community was able to quickly band together to 
prevent the adoption of that policy.
    More recently, the Forest Service proposed planning directives 
designed to facilitate the agency's 2012 Planning Rules. Like the rules 
themselves, the draft directives leave hunting and fishing at risk of 
being crowded out by other types of recreational activities. These 
rules and directives leave our Nation's forests vulnerable to the whims 
of those who do not understand, let alone participate in sustainable 
use activities. We cannot let the policies, rules and directives of 
those who do not hunt and fish become the downfall of recreational 
pursuits that are a fundamental part of our Nation's history and 
heritage, not to mention important elements of many State and Federal 
wildlife management and conservation efforts.
    These examples demonstrate the crucial need for H.R. 1825. If 
Congress does not expressly designate hunting and fishing as priority 
uses of our Federal lands, it is only a matter of time before we lose 
these opportunities that have been central to the North American Model 
of Wildlife Conservation.
    In August of 2000, America's leading wildlife conservation 
organizations met to identify how best to work collaboratively to help 
chart the course for the future of wildlife conservation in the United 
States. These organizations formed the American Wildlife Conservation 
Partners (AWCP), a consortium of over 40 organizations representing 
over 4 million hunters at the time. The impetus for this historic 
meeting was the urgent recognition that habitats on Federal forests and 
rangelands were deteriorating; declines in hunter participation was 
putting America's hunting heritage at risk, and along with it, the 
tradition of America's game management; public conflict and 
polarization over wildlife issues were increasing; and finally, the 
stewardship of Federal lands was hampered by conflicting laws and 
regulations guiding the management of these lands. AWCP subsequently 
presented ``Wildlife for the 21st century'' policy recommendations to 
President George W. Bush in both his terms and to President Barack 
Obama in 2009.
    In the 14 years that AWCP has engaged the Administration, sportsmen 
and women have tirelessly worked to resolve the same ongoing issues 
with the Federal land management agencies. During the Bush 
Administration, I served as a liaison to the sportsmen's community 
through high level positions at the Department of the Interior and U.S. 
Department of Agriculture, focusing on facilitating relationships 
between the Bureau of Land Management and the U.S. Forest Service with 
the sportsmen's community to better integrate sportsmen's issues into 
agency decision-making, specifically focusing on access to public 
lands.
    In 2005, I organized a conference between Interior and AWCP to 
advance their policy recommendations. Policy sessions with high-level 
Administration officials, the Interior Secretary, Interior Counsel and 
AWCP executives led to the recognition that the hunting community 
needed a more direct conduit to engage the Administration. 
Consequently, the Secretaries of the Interior and Agriculture 
established the Sporting Conservation Council (SCC), a Federal advisory 
committee specifically for members of the hunting community to advise 
on access, conservation funding, habitat management, and hunter 
recruitment and retention. The SCC recommendations resulted in 
President Bush's Executive Order #13443: Facilitation of Hunting 
Heritage and Wildlife Conservation, which called for a White House 
Conference on North American Wildlife Policy and a 10 year Recreational 
Hunting and Wildlife Conservation Plan. The 10 year plan was referenced 
by the Obama Administration in the charter for the current sportsmen's 
Federal advisory committee, the Wildlife Hunting Heritage Conservation 
Council.
    In 2006, 40 hunting, fishing and wildlife organizations and three 
Federal agencies signed the Federal Lands Hunting, Fishing, and 
Shooting Sports Roundtable Memorandum of Understanding with the purpose 
of ``implementing mutually beneficial projects and activities.'' The 
chief of the U.S. Forest Service has repeatedly reminded field staff of 
the importance of hunting and sport shooting on national forest lands 
through directives. Lastly, the Sport Fishing and Boating Partnership 
Council was established to benefit recreational fishing. Despite all 
these efforts and the supposed commitment of the present Administration 
to hunting and fishing opportunities, the reality is that the hunting, 
fishing and recreational shooting communities need statutory help to 
protect their interests.
    While sportsmen and women began with high hopes for the 
Administration, it has become increasingly clear that these hopes were 
based on paper promises. The continual stream of regulations that 
discourage participation in outdoor recreation has come from many 
different agencies and appears to be a coordinated affront to our 
hunting heritage. The current Administration has made little if any 
progress in implementing the 10 year Recreational Hunting and Wildlife 
Conservation Plan.
    Mr. Chairman, at the beginning of the last century, sportsmen saw 
the problems that over-utilization can do to wildlife. Hunters and 
anglers asked to contribute to conservation through license fees and 
excise taxes to ensure that wildlife would be around for future 
generations. Over the last century, sportsmen and women have upheld our 
end of the bargain and provided billions of dollars to conserve 
wildlife, including over 75 percent of all funding for State 
conservation agencies. Now we need your help. We need Congress to pass 
H.R. 1825 to help protect our outdoor heritage.
    Thank you for this opportunity to speak and I would be happy to 
answer any questions that the Committee might have.

List of Anti-Hunting Regulatory and Administrative Actions Taken During 
                       the Current Administration

U.S. Fish and Wildlife Service Vision Document
    The National Wildlife Refuge System ``vision'' document entitled 
``Conserving the Future: Wildlife Refuges, The Next Generation'' was 
published by the U.S. Fish and Wildlife Service (FWS) in October 2011. 
The document is designed to provide direction for National Wildlife 
Refuges for the next generation. Despite the fact that Congress, 
through the National Wildlife Refuge System Improvement Act, made 
hunting and fishing a priority for the refuges, the vision document 
neglects hunting and recreation while greatly expanding the FWS's 
mission to include controversial climate change adaptation.
Forest Service Planning Rules and Directives
    The Forest Service's Planning Rules affect every land management 
plan on the 193 million acres of the National Forest System. These 
rules provide little support for hunting and fishing on Forest lands:

    <bullet>  The Rules make negligible mention of hunting and, as such 
offer little in the way of expressing protections for hunting. As 
published the Planning Rules potentially relinquish to the courts the 
discretion to resolve questions over the role that hunting will play on 
National Forests in the future.
    <bullet>  The Planning Rules offer an ambiguous definition of 
``sustainable recreation'' that makes no specific mention of hunting. 
In addition, the definition is troublesome because it restricts 
``sustainable recreation'' to opportunities, uses and access that are 
ecologically, economically and socially sustainable, without providing 
a definition of what qualifies as ``socially sustainable.''

    The Forest Service has proposed a set of Directives that will 
facilitate planning under authority of the Planning Rules. Although 
these Directives provide more references to hunting than the Planning 
Rules, the Directives do nothing to protect hunting and fishing 
activities from direct competition with other forms of forest 
recreation.
Forest Service Planning in Inventoried Roadless Areas
    Following a Wyoming District Court's removal of an injunction 
against implementation of the Roadless Rule, the Forest Service adopted 
directives that instill in the Chief authority for general planning for 
road construction, reconstruction, timber cutting, sales and removal in 
all inventoried roadless areas. Instead of allocating such decision-
making authority to individual forest managers who are naturally more 
in tune with the recreational uses of their individual forests as well 
as the wildlife and habitat needs and concerns in that particular 
forest, the agency has placed that decision-making at the national 
level. By removing these powers from local land managers, the 
Secretary's office is greatly limiting the ability of local land 
managers to thin forests to reduce the chances of catastrophic 
wildfires, mitigate insect infestation, and manage forest habitat for 
the benefit of wildlife and those who seek to engage in the sustainable 
use of that wildlife.
BLM Shooting Range Policy
    In 2011, the BLM attempted to adopt a shooting range policy. The 
policy failed to acknowledge the traditional and historic use of public 
lands for recreational shooting. Even worse the policy endorsed BLM's 
existing policy of not operating shooting ranges or issuing new leases 
for shooting ranges because of the ``potential liability related to 
lead contamination of the environment,'' despite the fact that the EPA 
has developed guidance for management of spent lead ammunition at 
shooting ranges. SCI and other sporting organizations voiced strong 
opposition to the shooting range policy, prompting the BLM to withdraw 
the draft. The BLM's attempt to introduce such a policy sends a 
negative message to land managers about the role that recreational 
shooting should have on BLM land and expresses the agency's general 
lack of support for recreational shooting on Federal public lands.
Wild Lands Order
    In December 2010 Secretary Salazar issued Secretarial Order 3310, 
containing the controversial Wild Lands policy, without any public 
input. This policy would have allowed the BLM to circumvent 
congressional authority over designating wilderness by allowing the BLM 
to use the public resource management planning process to designate 
certain lands with wilderness characteristics as ``Wild Lands.'' 
Sportsmen and the Association of State Fish and Wildlife Agencies 
(representing the 50 State fish and wildlife agencies) opposed this 
order because it would have undermined States' authority by creating 
unnecessary barriers to fish and wildlife management and related 
recreation on public lands. The Secretary reversed this Order only 
after Congress acted to remove funding for this policy.
The FWS's Approach to Importation
    Those who seek to import hunting trophies into the United States 
have faced greater obstacles in the last few years due to the FWS's 
rigid enforcement of procedural requirements imposed by CITES and the 
Endangered Species Act. Such enforcement practices led to an increase 
in the number of seizures of hunting trophies being imported into the 
United States. The FWS has taken the approach that any variation from 
CITES documentation requirements, regardless of how minor, qualifies as 
a violation of U.S. law. The FWS manual directs personnel to consider 
trophy seizure or forfeiture as the agency's first recourse in the face 
of such violation. Seizure or forfeiture of expensive wildlife trophies 
is an outsized penalty for minor technical errors, where there is no 
evidence of intent to violate the law. Although the FWS has made 
efforts to work with range nations and with CITES to clarify the 
requirements necessary for the documentation required for particularly 
troublesome trophy importation, the FWS continues to follow an approach 
to trophy importation that discourages rather than encourages U.S. 
hunters to engage in sustainable use conservation of foreign species.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate your testimony. We are 
going to ask questions only on the sportsmen bill first. We 
will deal with that, and then we will go back to testimony and 
questions that deal with the other three pieces of legislation 
before us today.
    So, Mr. Benishek, can I turn to you and see if you have any 
questions of these witnesses on your bill, only?
    Dr. Benishek. Thank you, Mr. Chairman. You know, your 
testimony brings up a few questions that I would like to get a 
little more detail on, and one of those is the--we talked about 
the lawsuits and the wasted resources that are a result of 
that.
    So, could you give me an example of a lawsuit that has 
occurred that you think wasted the Government's resources in 
fighting this lawsuit, and why this legislation is so important 
to illuminate that? And be able to better use our taxpayers' 
funds. Does anyone have an example they would like to share?
    Mr. Horn. Well, Mr. Chairman, Mr. Benishek, a classic 
example arises in your home State involving the Huron-Manistee 
National Forest, a lawsuit better known as the Meister case. 
Individuals filed suit against the Forest Service, arguing that 
the agency had failed to consider closing large swaths of the 
Huron-Manistee National Forest to hunting, because these 
individuals contended that the presence of hunters in the fall, 
and the fact that they might hear some distant gunshots, 
interfered with their quality experience.
    A U.S. district court dismissed the case, turned down the 
plaintiffs. It was appealed to the sixth circuit. The sixth 
circuit upheld the plaintiffs and told the Forest Service that 
they had to go back, they had to redo their plan, they had to 
expressly consider closing large chunks of the national forest 
to hunting, because of these--I will call them the tender 
aesthetic sensibilities.
    The Forest Service went back, redid the plan. They 
concluded that action last winter. Mr. Meister and company were 
not satisfied with the revised plan and the revised 
consideration they got. They filed a new lawsuit about 2 months 
ago, and matter of fact, yesterday the U.S. district court 
issued the new briefing schedule, which will ensure that this 
case continues at least through this calendar year. I hate to 
think of the amount of money that has been squandered on both 
the litigation and now the second redo of the Forest plan, all 
aimed at essentially running the hunters off during a limited, 
what, 6-week hunting season in the fall months.
    Dr. Benishek. Thank you very much. I know I grew up in an 
old town called Iron River. And we had a hotel, so that during 
the deer-hunting season we were just so happy that the hunting 
season came because the hotel was full. And that basically got 
us through the winter, because sometimes there was not much 
else happening.
    So, speak again. I think you mentioned a huge number of the 
economic activity in our communities that are a result of 
hunting and fishing activities. Could you tell me that again?
    Ms. Simpson. The figure was $90 billion in 2011. And that 
is just counting the amount of money that has been collected 
from excise taxes, from Pittman-Robertson and Dingle-Johnson. 
But then that doesn't even account for all of the added money 
that is collected from, as you point out, the local hotel, 
perhaps the gas station, the convenience store, and all of the 
additional outdoor equipment that is purchased.
    Obviously, those gateway communities between the cities and 
the great outdoors are the ones that are benefiting those rural 
economies.
    Dr. Benishek. Well, as a member of that rural economy, as a 
child, the people that would come up to the Upper Peninsula 
from the Detroit area and the big city, those guys would just 
love their opportunity to get to the woods and it was a real 
economic boost to our town. And, even now, as I go back to my 
district and the hotels and community centers that these 
hunters frequent, those small localities depend so heavily on 
those hunters that it is very important to their overall 
survival through--sometimes it is a very tough winter.
    So, I can testify, as well, that this is huge for the rural 
communities in America that are, as you said, the gateways to 
the Federal forests that we depend on so much for the 
availability of wildlife. With that I will yield back. Thank 
you.
    Mr. Bishop. Thank you. Mr. Grijalva, do you have questions?
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Rountree, I said 
in my opening statement that people who support H.R. 1825 and 
people who oppose it might have legitimate differences of 
opinion, or we might just have a different interpretation of 
the impacts of the language. So let me ask you about some of 
that language.
    Is it your reading that the legislation, Section 4(e)1, 
would permit temporary roads, motorized equipment, and 
motorboats, use of motor vehicles, landing of aircraft 
structures and installations, and other forms of mechanical 
transport in designated wilderness if it was to support and 
facilitate recreational fishing, hunting, and shooting 
opportunities? Is that----
    Mr. Rountree. Mr. Grijalva, since the bill was introduced 
less than a week ago, BLM has really not had the opportunity to 
complete a careful review and conduct internal discussions on 
the bill. We would be happy to get back with you for the 
record, if you would so desire.
    Mr. Grijalva. I would appreciate that. I think the 
Committee would as well, because part of it is how we are 
interpreting the content of the legislation.
    Moving on to Section 4(e)2 of the legislation, is it your 
view that the wording of this section actually changes the 
purpose of wilderness lands from being preserved for the 
wilderness character, or to be managed for fish and wildlife 
purposes?
    Mr. Rountree. Again, Mr. Grijalva, we have not had an 
opportunity to review the bill in its entirety, and have not 
had the internal discussions necessary to really formulate our 
response. We would, however, be happy to get back with you for 
the record, if you would like.
    Mr. Grijalva. And, finally, is there a reason we need to 
effectively waive NEPA in this legislation?
    Mr. Rountree. I can't think of any. In any legislation, 
anything that would waive NEPA really takes the legs out from 
under our local decisionmakers in terms of the types of 
analyses that we like to do on any type of Federal action, as 
well as precludes public involvement in the formulation of 
these decisions.
    Mr. Grijalva. Thank you. Do you want me to finish this 
round of questioning or break now?
    Mr. Bishop. I think we can get one more in.
    Mr. Grijalva. If I could finish, I have a couple more 
questions.
    Mr. Bishop. Go ahead.
    Mr. Grijalva. OK, thank you. Ms. Recce, before we have to 
take a break, I want to ask you about your explanation as to 
why practically every Democrat on this Committee voted against 
the Sportsmen's Heritage Act last year. I ask you that because 
in your written testimony today it states that those voting 
against the bill listened to opponents who argued that the 
legislation would open the door to prohibited activities like 
motorized recreation, road construction on lands designated as 
wilderness.
    You continued, ``Equally specious were arguments that H.R. 
2834,'' the act then, ``would open national parks or other 
units of the national park system to public uses not authorized 
by Congress.'' It appears to me that the point you are making 
is the opponents of this legislation were misinformed about its 
effects on public lands.
    Assuming that is true, I have to say that you, yourself, 
are partly responsible for Members believing that the bill 
would allow motorized recreation and certain kinds of road 
construction on the lands. In your previous appearance before 
this hearing, on September 9, 2011, you testified that one of 
the reasons we needed this bill was that the current policy 
regarding recreation on Federal lands--and I quote from your 
testimony--``holds hidden pitfalls.'' It does not encourage 
proactive management of recreation. It does not prevent sudden 
and arbitrary closures of public lands to recreation. It does 
not require that reasonable access to these open lands be 
provided.
    During the questioning you reconfirmed that the problem is 
not with 95 percent of public lands that are open to 
recreational shooting and hunting. The problem is that the 
lands--and I quote from your testimony--``can be open; it is 
getting to them.'' You added that in many of these places there 
are not roads.
    So the thrust of your testimony 2 years ago of the major 
advantage of that legislation was that it allowed access, 
including wilderness. Now, as I understand your testimony 
today, is that it doesn't, that the focus isn't access. So the 
testimony in 2011 was wrong, and the testimony today is 
correct? That is one question.
    The second question: Will this bill result in more 
motorized access into designated wilderness areas?
    Mr. Bishop. If you can limit your answers to a minute, go 
for it, please.
    Ms. Recce. I will be happy to. Thank you very much for the 
question. My testimony today is consistent with 2 years ago. It 
is about opportunities and access on Federal public lands. But, 
as I said earlier, that the bill, H.R. 2834, and this 
legislation, there was no intent, and there was, in fact, 
efforts in the bill to incorporate language to ensure that 
wilderness areas were not open to unauthorized activities. And 
the legislation does not amend the Wilderness Act.
    So, indeed, on lands open for recreational activities, as 
Forest Service/BLM lands, it is about opportunities and access. 
Both bills provide certain guidelines for keeping those lands--
--
    Mr. Grijalva. Will it not result in more motorized access 
into designated wilderness area?
    Ms. Recce. No, sir, it will not. I testified the last time 
to that effect. That discussion was also on the House Floor 
during the debate on the bill.
    Mr. Bishop. I am going to have to cut this off. I am sorry.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Bishop. I have 9 minutes left before the voting takes 
place. There are 400 that haven't shown up. Mrs. Lummis, if you 
have some questions, I think we can get one last round of 
questions. And then I am going to ask the body if you will, to 
just cool your heels for a while. I am sorry. We will come 
back, we will finish questions on the sportsmen's bill, and 
then we will take testimony and have questions on the other 
three bills, if that is OK.
    Do you have some you would like to ask right now?
    Mrs. Lummis. I do, Mr. Chairman.
    Mr. Bishop. OK, go ahead.
    Mrs. Lummis. Thank you. Ms. Recce, are you aware that anti-
hunting and anti-recreation lawsuits are often awarded 
attorneys fees at taxpayer expense?
    Ms. Recce. Yes, I am. I don't have the details of that, 
myself. My colleagues might. But, yes, I am aware of that.
    Mrs. Lummis. Mr. Rountree, can you tell us how much the BLM 
spends every year to reimburse litigants for suing the Federal 
Government, whether as part of a settlement or a successful 
litigation?
    Mr. Rountree. No, ma'am, I can't. But we will certainly 
look into it and get back to you, if we can.
    Mrs. Lummis. I would love to hear back from you, and I 
would love to hear back from you breaking it down for lawsuits 
that are procedural in nature, how much for litigation in 
general, and where does the money come from? Does it come from 
the BLM's budget? If you are sued or you settle, does it come 
out of your operating budget?
    Mr. Rountree. It does.
    Mrs. Lummis. Hence, the very people that are criticizing 
the Federal Government for managing Federal lands inadequately 
or us not funding those agencies adequately are the same 
people, Mr. Chairman, who are taking money away from these 
Federal agencies by suing them, suing them and settling, even 
on procedural grounds, and then using the money for their own 
purposes, rather than for the Government's management of public 
lands.
    A follow-up for Ms. Recce. Can you explain how Mr. 
Benishek's bill helps to limit taxpayer-funded litigation and 
restores some sanity to how we treat hunting and fishing on 
public lands?
    Ms. Recce. The legislation clarifies the original intent of 
laws that we believe the courts have misconstrued in a number 
of lawsuits. We have organizations within our community who 
have been involved in this litigation on the side of the 
Federal Government. And, unfortunately, certain court rulings 
have gone, as Mr. Horn stated, have supported the plaintiffs. 
And this legislation is critical to restoring the order and 
sanity that you speak to.
    Mrs. Lummis. And, Mr. Chairman, thank you. In light of the 
impending votes, I will yield back the balance of my time.
    Mr. Bishop. Thank you. I appreciate that. To the three 
witnesses who have already testified, I have a couple of 
questions. If you need to leave, I can understand that. When we 
scheduled this, this was not supposed to be an end day of the 
week, so I apologize for this situation. This kind of breaks 
something we tried last session to end with our scheduling 
structure. So I apologize for it happening.
    There may be others who come back for this meeting, as 
well. Mr. Schneider, if you still can stick around, fine. If 
you have to go to catch the plane, I understand that at the 
same time. We will do the other three bills, as well, when we 
return.
    With that, the Committee is going to be in recess until who 
knows when. Thank you.
    [Recess.]
    Mr. Bishop. All right. The Committee will come to order 
again, because you are all so loud and boisterous. And I notice 
we have lost not only some of our Members, but a whole lot of 
the audience. And I apologize for making you have to wait that 
long.
    Do we still have questions pertaining to the sportsmen's 
bill. Did you have some more that you wanted to ask on this 
one?
    Mr. Grijalva. I do.
    Mr. Bishop. And do you have another round of questions you 
would like to ask?
    Dr. Benishek. Oh, no, I am actually good.
    Mr. Bishop. OK. I will recognize Mr. Grijalva first, and 
then I will ask some questions.
    Mr. Grijalva. OK. This question is for Mr. Horn and Ms. 
Simpson.
    In reading your written statement, Mr. Horn, you used the 
term ``anti's,'' and talk about bogus arguments of wilderness 
advocates. Ms. Simpson, you talk about litigants, ``paper 
promises of the Obama Administration,'' and include a list of 
anti-hunting regulatory and administrative actions of the Obama 
Administration.
    We also have some very thoughtful letters from the National 
Wildlife Federation, Theodore Roosevelt Conservation 
Partnership, and Back Country Hunters and Anglers, explaining 
why they prefer the Senate version of the legislation to H.R. 
1825. In short, they prefer the Senate bill because it doesn't 
contain NEPA waivers or any other controversial wilderness 
provision.
    So, my question is, what are your respective views on the 
Senate version?
    Mr. Horn. Mr. Chairman, Mr. Grijalva----
    Mr. Grijalva. Thank you.
    Mr. Horn [continuing]. I think the Senate version is fine, 
but the Senate version does lack the corrections for the 
Wilderness Act that would essentially fix the problems that the 
ninth circuit created with its, I think, out-of-the-ordinary 
decisions in the Tustumena Lake case, the High Sierra Hikers 
case, and the Kofa Refuge case, all of which represented 
substantial departures from the legal status quo that governed 
the Wilderness Act for approximately 35 years.
    And each of those decisions, which I am prepared to go 
through in some detail, if you would like----
    Mr. Grijalva. No, that is good.
    Mr. Horn [continuing]. As I said, upset the established 
order. In each of those cases the ninth circuit reversed a 
district court decision. And in each case the ninth circuit 
reversed the professional determinations of an agency--twice 
the Fish and Wildlife Service and once the Forest Service. And 
that those decisions----
    Mr. Grijalva. Specific to the NEPA provisions.
    Mr. Horn. Oh, well----
    Mr. Grijalva. You feel that is the difference that you are 
talking about?
    Mr. Horn. Well, no. The Wilderness Act, that is what I was 
talking about first. Now, the NEPA one is another one where the 
1997 Refuge Act directed that the Fish and Wildlife Service 
would prepare a comprehensive conservation plan, CCP, for each 
refuge unit. Each CCP would determine what activities were to 
be permitted on refuge units. They made the compatibility 
findings.
    Mr. Grijalva. OK. Ms. Simpson? If I may, because it is my 
last chance to ask questions.
    Ms. Simpson. Sure, thank you very much for the question. I 
would direct your attention to the letter that the 21 
organizations representing national hunting groups submitted 
for the record. Rocky Mountain Elk Foundation, Congressional 
Sportsmen's Foundation, National Wild Turkey Federation, 
representing millions of hunters across the country, all have 
supported this legislation. And, frankly, the difference 
between this bill and what is in the Senate----
    Mr. Grijalva. OK.
    Ms. Simpson [continuing]. And the reason that the TRCP and 
Back Country Hunters and Anglers support the Senate version is 
a difference in the interpretation of the Wilderness Act. And, 
frankly, we believe that this interpretation here is the 
correct one.
    Mr. Grijalva. I appreciate that. I want to ask a little 
bit, if I may, Ms. Recce, about the issue of safety. In the 
legislation dealing with recreational shooting, the bill states 
that each head of the Federal agencies should permit lands to 
be used for shooting ranges, but also designates specific 
recreational shooting activities. I see a lot of discussion as 
to the protocol, the factors that must be considered in 
determining which pieces of land get shooting ranges.
    But I see nothing in the bill about the important issue of 
safety. Nothing in the bill gives agencies any guidance 
regarding safety protocols Federal agencies should put in place 
on these lands. None of us want the Federal Park Service lands 
to become free fire zones, or where people feel that they are 
risking life and limb their.
    Now, I know the NRA has protocols considering for proper 
safety protocols. So can you tell us some of the safety 
protocols for shooting on Federal lands that could be included 
in this bill, and mandated in this bill? And if safety isn't an 
issue, why is it necessary to put a limitation on liability in 
the legislation?
    Ms. Recce. I appreciate the question. What has happened is 
on both Forest Service and BLM lands, the agencies, their 
solicitors have suggested that to designate areas for 
recreational shooting would impose an undue liability on the 
Federal Government. Our position is that, in fact, by 
designating areas, it will help to manage recreation better, it 
will ensure that there are safe and responsible areas for 
recreational shooting, and it will remove conflict between 
shooting and other recreational activities.
    We have argued that, by the fact that recreational shooting 
in fact has one of the lowest incidents of death or injury of 
any recreational activity on public lands, that there are even 
other recreational activities that would have greater 
liability. But yet the agencies----
    Mr. Grijalva. Protocols that could be added to the bill as 
it moves along?
    Ms. Recce. Well, I think that both agencies already have in 
place safety protocols. I mean they do have protocols for safe 
shooting. They are posted on kiosks and at visitors centers. So 
they do exist.
    And we are also in a Memorandum of Understanding with the 
agencies to work with them on recreational shooting and 
hunting----
    Mr. Grijalva. Would you quickly--and then I am done, thank 
you, Mr. Chairman, for your indulgence--could--if I may, could 
you--can you agree or can we agree--probably not--but that some 
guns, military-style assault weapons, for instance, have no 
place in national parks insofar as they are military-style 
weapons and not for the purpose of hunting and sporting? And 
the conflict between families that are hiking, recreating, 
camping, the questions about which gun should be allowed. Is 
it, in your mind, open-ended in the legislation?
    Ms. Recce. Well, in the National Park System recreational 
shooting isn't open to the public. So the focus would be on 
Forest Service and BLM lands, which have, for decades, allowed 
recreational shooting. It really comes down to where you can 
conduct shooting safely. You want to have a backstop, you want 
to ensure that you are not building a trail behind a shooting 
range, which Forest Service did in one of the southern national 
forests, and then suggested shooting was unsafe because it 
affected the hikers. But they put the trail in after the 
shooting range.
    So, it is those kinds of issues, not the firearm, but as 
much as where it is appropriate to have recreational shooting, 
as any other activity, including off-highway vehicle use.
    Mr. Grijalva. So I am asking about the type of weapon. Is 
there any type of weapon that you would see that wouldn't be 
allowed?
    Ms. Recce. I think that any firearm can be used, so long as 
it is legal in that State and legal by the Federal Government 
to be used.
    Mr. Grijalva. OK, thank you. I yield back.
    Mr. Bishop. Thank you. I just have a couple of quick 
questions. Mr. Horn, some of the other groups have charged that 
this bill would have sweeping provisions that would rewrite the 
long-established Wilderness Act. Does this bill contain that 
language?
    Mr. Horn. Mr. Chairman, no, it does not. And, in fact, what 
it does is the bill restores the legal status quo that existed 
regarding the Wilderness Act for about its first 35 years of 
existence.
    As I was indicating previously, there have been three ninth 
circuit decisions that we think fundamentally changed the 
status quo: Tustumena Lake case out of Alaska, the High Sierra 
Hikers case out of California, and the Kofa Refuge case out of 
Arizona. As I indicated, all three of those, the ninth circuit 
reversed district courts that applied established precedent, 
and reversed the professional judgments of the agencies to 
essentially elevate the necessity test that was included in the 
Wilderness Act by making it more difficult for agencies to make 
necessity determinations regarding what type of activities 
would occur in wilderness areas.
    An Alaska case, the ninth circuit said stocking baby 
sockeye salmon was inconsistent with the Wilderness Act. It 
wasn't necessary. In the High Sierra case they said that the 
Forest Service had failed to demonstrate that horseback trips 
were not necessary in wilderness areas by elevating the 
standard. And in the Kofa case, the ninth circuit basically 
said even though Kofa was a refuge established by Franklin 
Roosevelt with a primary purpose being conservation of the 
Desert Big Horn Sheep, the ninth decided that it was a 
wilderness first, and a refuge second, and therefore, 
wilderness restrictions trumped the ability of Fish and 
Wildlife, in cooperation with Arizona Fish and Game, to engage 
in activities to help conserve and restore the Desert Big Horn 
Sheep.
    We think all three of those cases cry for correction. The 
bill has very specifically tailored corrections, along with two 
specific provisos that say nothing herein opens or allows 
commodity development, roads, or motorized access in wilderness 
areas. I don't think the bill can be any clearer in that 
regard.
    Mr. Bishop. Thank you. I appreciate that. It is a unique 
concept of actually having policy done by a legislative branch, 
instead of a judicial branch. I don't know why we would ever 
want to think of that.
    The bill also reaffirms the supplemental purposes language 
that is already in the Wilderness Act. Why is it necessary, 
since it is already in the original Wilderness Act?
    Mr. Horn. Well, even though it is in the Wilderness Act, 
the ninth circuit declined to recognize that language is there, 
and has been there since the statute was enacted in 1964.
    And in the Kofa case, as I said, it was a wildlife refuge, 
its primary purpose was conservation of the Desert Big Horn 
Sheep. Fish and Wildlife Service, in cooperation with Arizona 
Fish and Game, had authorized maintenance of these water 
guzzler devices to enhance the sheep population. They had been 
out there for years and years. They had been there when 
Congress designated Kofa, parts of Kofa, as wilderness. The 
ninth circuit decided notwithstanding the congressional 
affirmation, notwithstanding the supplemental purposes 
language, that Kofa had to be managed as a wilderness first, 
meaning no activities and structures, and a wildlife refuge 
second.
    This language in H.R. 1825 basically says Congress 
reaffirms the original 1964 supplemental purposes language that 
still, in black-letter law, in the statute today, just that the 
court in San Francisco found a way to disregard that language.
    Mr. Bishop. So both portions, same thing again. You are 
reestablishing the intent of Congress by restating these 
provisions in this particular bill. I appreciate that.
    Does anything in this bill allow activity that is currently 
prohibited, like motorized recreation, or road construction, or 
activities in any kind of wilderness area? Is there anything 
that opens that up?
    Mr. Horn. Mr. Chairman, absolutely not. As I cited it in my 
statement, if you look at the two provisos in 4(e)1 and 4(e)2, 
both of them state very plainly and expressly nothing in H.R. 
1825 opens wilderness areas to commodity development, road 
construction, or motorized access. And it says it twice, and it 
says it plainly. I don't know what more you all could say in a 
bill.
    Mr. Bishop. There is a lot more I could say, but it 
wouldn't be appropriate, legal language.
    This last question, then. You have a NEPA provision in the 
bill, which is sometimes a controversial word around here. So, 
what does the NEPA provision in this bill do? Why is it 
necessary?
    Mr. Horn. Well, there are two NEPA provisions. The first 
one is just a--I call it a housekeeping chore. Because the bill 
designates BLM and Forest Service lands as open until closed, 
that means the agency needs to take no specific Federal action 
to continue hunting or fishing, because it has been done 
statutorily by Congress.
    Under those circumstances, since you don't have to take an 
action to open it, there is no action that would trigger the 
application of the Natural Environmental Policy Act. However, 
because of 40 years of court rulings, the courts have made it 
clear that they don't like to see things done to NEPA by 
implication.
    And so, there is a--I call it a housekeeping provision in 
here that says, and makes it clear, that because it is open 
until closed, and no specific Federal action is necessary, no 
environmental impact statement or EA is necessary to continue 
hunting and fishing. That is one provision.
    The second corrects another court problem involving the 
Fish and Wildlife Service where Congress in 1997 said, ``Fish 
and Wildlife, you prepare what is called a CCP, Comprehensive 
Conservation Plan, for each unit. And within that CCP, which 
also includes a NEPA document, you make your determinations of 
where fishing and hunting is allowed on refuges.''
    A district court in Washington, D.C. said that the CCP, by 
itself, wasn't enough, that the Fish and Wildlife Service, if 
they did multiple CCPs at the same time--there are, after all, 
535 refuges--they had to do a cumulative effects analysis. And 
the Service said, ``Wait a minute. If I hunt deer on the Bond 
Swamp Refuge in Georgia, or I shoot woodcock in the Canaan 
Valley in West Virginia, or I hunt moose in the Yukon Flats in 
Alaska, there are no cumulative effects of these incredibly 
disparate activities.''
    Judge says, ``Go do a cumulative effects statement 
anyway.'' The Fish and Wildlife Service spent 3 years and 
hundreds of thousands of dollars of doing what we all thought 
was a superfluous exercise that was ultimately upheld by the 
judge.
    The provision in the bill would basically go back to the 
specific provisions of the 1997 Refuge Act and say, ``When you 
do the CCP and the attendant NEPA document, Fish and Wildlife, 
that satisfies your NEPA obligations.'' End of story.
    Mr. Bishop. Thank you. I appreciate your answers to my 
questions. I don't have any others.
    To the three of you who are testifying to the sportsmen's 
bill, I appreciate you coming here and taking the time to do 
that. This portion of the hearing will now end, and we will go 
on to the other three bills: the Huffman, Young, and Pearce 
bill. If you three would like to stay, please feel free to do 
so. There may be questions about those other three bills. I 
know it is not why you are here. Just I am not throwing you 
out; you can stay if you would like to. We always, obviously, 
had that long pause, if you need to go back and do some real 
work, I can understand that, as well.
    Mr. Rountree, I apologize for making you sit through all of 
this. I hadn't planned on this kind of break in there. I am 
sorry about that. But if you would like to speak for the 
Administration on the other three bills, we would be happy to 
hear your testimony now, and then have some questions for you.
    Mr. Rountree. Thank you, Mr. Chairman.

   STATEMENT OF CARL ROUNTREE, ASSISTANT DIRECTOR, NATIONAL 
   LANDSCAPE CONSERVATION SYSTEM AND COMMUNITY PARTNERSHIPS, 
   BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

ACCOMPANIED BY: BERT FROST, ASSOCIATE DIRECTOR, NATURAL RESOURCE 
            STEWARDSHIP AND SCIENCES, NATIONAL PARK SERVICE, U.S. 
            DEPARTMENT OF THE INTERIOR
    Mr. Rountree. Mr. Chairman, members of the Committee, thank 
you for inviting the Department of the Interior to testify on 
bills of interest to the Bureau of Land Management and the 
National Park Service. I will briefly summarize the 
Administration's testimony on H.R. 995, the Organ Mountains 
National Monuments.
    The Department of the Interior strongly supports the 
protection and conservation of the Organ Mountains. The Organ 
Mountains lie to the east of Las Cruces, New Mexico, dominating 
the landscape as they rise over 9,000 feet in elevation. They 
are a popular recreation area with multiple hiking trails, 
campgrounds, opportunities for hunting, mountain biking, and 
other dispersed forms of recreation. Running generally north-
south for 20 miles, the steep, needle-like spires resemble the 
pipes of an organ, and are an iconic fixture of life in 
southern New Mexico.
    The BLM would welcome the opportunity to work with the 
sponsor and the Committee to address issues including the 
purposes statement of the legislation, boundaries, wilderness, 
and the Department of Defense's needs. As Representative Pearce 
notes, this area is a national treasure deserving of the 
protections that come with the designation as a national 
monument. The BLM hopes that, with certain modifications, we 
can support this bill in the future.
    H.R. 1411, the California Coastal National Monument 
Expansion. The Department of the Interior supports H.R. 1411, 
which would add approximately 1,255 acres of public land along 
the coast of Northern California to the existing California 
Coastal National Monument managed by the Bureau of Land 
Management. This relatively small area contains significant 
natural and cultural resources, including several riparian 
corridors, wetlands, pine forests, meadows, coastal prairie, 
and sand dunes, as well as dramatic blow holes and waterfalls 
cascading into the sea.
    Extensive cultural resources attest to a history of 
occupation of this site, going back at least 9,000 years. Today 
the Manchester Band of Pomo Indians partners with the Bureau of 
Land Management to conserve and protect the resource values of 
these lands. The addition of the Point Arena-Stornetta Public 
Lands to the California Coastal National Monument will 
establish a mainland base for access and interpretation of the 
existing monument, as we continue to work with many local 
partners, encouraging public access to and appreciation of the 
area's resources.
    H.R. 586, Denali National Park Improvement Act. Finally, I 
am submitting a statement for the record on behalf of the 
National Park Service on H.R. 586, Denali National Park 
Improvement Act. I am accompanied today by Bert Frost, the 
Associate Director for the Natural Resource Stewardship and 
Sciences at the National Park Service, who will be happy to 
answer any questions on H.R. 586.
    The Department supports Section 2 of H.R. 586 with an 
amendment, and does not oppose Sections 3 and 4 of the bill. 
Section 2 would authorize the Secretary of the Interior to 
issue permits for micro-hydro projects in a limited area of the 
Kantishna Hills. The National Park Service would like the 
opportunity to work with the Committee to modify the 100-day 
permit response timeframe.
    Thank you for the opportunity to present testimony today. 
Mr. Frost and I will be happy to answer any questions you might 
have.
    [The prepared statement of Mr. Rountree follows:]
   Prepared Statement of Carl Rountree, Assistant Director, National 
  Landscape Conservation System and Community Partnerships, Bureau of 
Land Management, U.S. Department of the Interior, on H.R. 995 and H.R. 
                                  1411
     h.r. 995--organ mountains national monument establishment act
    Thank you for inviting the Department of the Interior to testify on 
H.R. 995, the Organ Mountains National Monument Establishment Act. The 
Department of the Interior strongly supports the protection and 
conservation of the Organ Mountains in southern New Mexico. This area 
is a national treasure deserving of the protections that come with 
designation as a National Monument. During the 112th Congress, the 
Department testified in support of S. 1024, the Organ Mountains--Dona 
Ana County Conservation and Protection Act, before the Senate Energy 
and Natural Resources Committee. S. 1024 provided for the designation 
of the Organ Mountains as a National Conservation Area (NCA) as well as 
a number of other conservation designations in Dona Ana County, New 
Mexico. The Department recommends a number of changes to H.R. 995, so 
that we can likewise support this bill.
Background
    The Organ Mountains lie to the east of Las Cruces, New Mexico, 
dominating the landscape as they rise to over 9,000 feet in elevation. 
Running generally north-south for 20 miles, the steep, needle-like 
spires resemble the pipes of an organ and are an iconic fixture of life 
in southern New Mexico. This Chihuahuan Desert landscape of rocky 
peaks, narrow canyons, and open woodlands contain a multitude of 
biological zones, from mixed desert shrubs and grasslands in the 
lowlands, ascending to Alligator juniper, gray oak, mountain mahogany 
and sotol, and finally to ponderosa pines at the highest elevations. 
Consequently, the area is home to a high diversity of plant and animal 
life, and excellent wildlife viewing opportunities are present in the 
area. Visitors frequently see golden eagles, red-tailed hawks, 
peregrine falcons, Gamble's quail, desert mule deer, coyote, 
cottontail, and collared lizards. Mountain lions and other predators 
are also present, but less frequently observed.
    There are six endemic wildflower species, including the Organ 
Mountains evening primrose. Seasonal springs and streams occur in the 
canyon bottoms, with a few perennial springs that support riparian 
habitats.
    The Organ Mountains are a popular recreation area, with multiple 
hiking trails, a campground, and opportunities for hunting, mountain 
biking, and other dispersed recreation. There are several developed 
recreation areas within the Organ Mountains, including the Dripping 
Springs Natural Area (formerly known as the Cox Ranch) noted for its 
``weeping walls;'' the Aguirre Spring Campground, nestled at the base 
of the spectacular needle-like spires of the Organ Mountains; the 
Soledad Canyon Day Use Area; and many miles of hiking, horseback 
riding, and mountain biking trails.
H.R. 995
    H.R. 995 would designate 54,800 acres of BLM-managed public land as 
the Organ Mountains National Monument. Each of the National Monuments 
and NCAs designated by Congress and managed by the Bureau of Land 
Management is unique. However, these designations typically have 
certain critical elements in common, including withdrawal from the 
public land, mining, and mineral leasing laws; off-highway vehicle use 
limitations; and language that charges the Secretary of the Interior 
with allowing only those uses that further the conservation purposes 
for which the unit is established. Furthermore, these Congressional 
designations should not diminish the protections that currently apply 
to the lands.
    Most of these standard provisions are included in H.R. 995; however 
there are provisions that require amendment before the Department could 
support the legislation. Generally, the ``purposes'' section of a 
National Monument or NCA designation establishes the conservation goals 
for the unit. In this bill, the purpose statement for H.R. 995 includes 
two ``resources'' that are undefined and unnecessary for the 
conservation of the area. Specifically, in section 5, both 
``livestock'' and ``traditional'' are listed as resources to be 
conserved, protected, and enhanced, along with the more standard 
``cultural, archaeological, natural, ecological, geological, 
historical, wildlife, watershed, educational, recreational and scenic 
resources.'' The inclusion of grazing and traditional ``resources'' in 
the purpose statement could prevent the BLM from adequately managing 
the area.
    Grazing exists on most of the BLM's National Monuments and NCAs, as 
with most public lands, and is typically consistent with their 
management. However, grazing is not a stated purpose of any national 
monuments. Section 6(c) of H.R. 995 mandates that grazing continue in 
accordance with the same law and executive orders that apply to grazing 
on other land under the BLM's administrative jurisdiction, and we do 
not object to this provision. However, National Monuments and NCAs are 
intended for the protection, conservation, and restoration of 
nationally-significant resources, objects, and values of historic or 
scientific interest. Establishing livestock as a resource to be 
conserved and protected within this National Monument may, at a 
minimum, lead to confusion. A more extreme interpretation could create 
conflicting and inconsistent management standards for the grazing of 
livestock within the national monument compared to standards for 
grazing management on other lands managed by the BLM. This would be 
problematic from both a grazing management perspective, as well as a 
monument management perspective, and we oppose the addition of 
livestock as a monument purpose under the bill. Likewise, the term 
``traditional . . . resources'' is an ambiguous term which the bill 
leaves undefined. The BLM has concerns about the scope of activities 
that this might include. In summary, while the BLM supports the 
continuation of grazing within the proposed national monument, grazing 
and traditional uses should not be listed as monument purposes.
    Section 6(b)(2) appears to limit the BLM's discretion to restrict 
or prohibit motorized and mechanized use within the new national 
monument if such use is for the purpose of construction and maintenance 
of range improvements or flood control or water conservation systems. 
This language could create unnecessary conflicts with the conservation 
uses for which the monument is established. Motorized and mechanized 
use is not prohibited within a national monument (as it would be within 
designated wilderness) but the BLM would want to direct motorized use 
within the national monument to specified routes determined through a 
public process.
    The boundaries established for the Organ Mountains National 
Monument under H.R. 995 largely reflect the boundaries that the BLM 
administratively established for the Organ Mountains Area of Critical 
Environmental Concern (ACEC) in 1993. In the nearly 20 years since that 
ACEC was established, numerous changes on-the-ground and in the local 
community have resulted in the BLM's support for a larger national 
monument boundary with a different configuration.
    For example, the BLM has made a number of significant land 
acquisitions in the area over the past 20 years, including 400 acres on 
the east side which make up the popular Soledad Canyon Day Use Area. 
These acquired lands, along with surrounding public lands, should be 
incorporated into the bill's proposed monument to protect important 
resources.
    Also, the Army's Fort Bliss and White Sands Missile Range border 
much of the east side of the existing ACEC. Working with the local BLM, 
the Army has indicated a strong interest in transferring the Filmore 
Canyon area to the BLM for conservation and protection as part of a 
larger designation. Additionally, the Army has advocated for additional 
conservation lands on the south and east in order to prevent 
development adjacent to these army bases. The Army recommends military 
overflight language (similar to that included in S. 1024) as well as 
language on the compatibility of current and future military training 
and testing activities on DOD lands adjacent to the proposed national 
monument. We would welcome the opportunity to discuss these issues in 
more detail with the sponsor and the Committee.
    Section 9 of H.R. 995 calls for the release from wilderness study 
area (WSA) status of three WSAs totaling over 17,000 acres. The BLM 
opposes this wholesale release and instead recommends the designation 
of an approximately 19,000-acre wilderness area within the proposed 
national monument, and the release of about 800 acres from WSA status. 
The land currently comprising the Organ Mountains, Organ Needles and 
Pena Blanca WSAs contains exceptionally high wilderness values. These 
three WSAs form the heart of the most rugged, isolated, and secluded 
sections of the Organ Mountains. Granite spires and red rhyolite cliffs 
are split by ribbons of green trees providing exceptional scenery for 
the visitor. This is what Congress envisioned when it passed the 1964 
Wilderness Act describing areas with ``outstanding opportunities for 
solitude or a primitive and unconfined type of recreation.''
    Finally, the bill includes nonstandard language on a number of 
issues including hunting and trapping, rights-of-way, and law 
enforcement. We would like to work with the Committee and the Sponsor 
to include language adopted in previous National Monument or NCA laws 
that insures that the state continues to appropriately regulate hunting 
and trapping, that the upgrading of existing of rights-of-way are 
allowed, and that the needs of law enforcement are met, and other 
technical issues in accordance with the Federal Land Policy and 
Management Act of 1976, regulations, and policy.
Conclusion
    The Organ Mountains are not only a treasure for the state of New 
Mexico, but one of national significance to be protected and cherished 
by and for all the people of the United States. The Department looks 
forward to working with the sponsor and the Committee to find solutions 
to the issues we have raised, as well as additional more technical 
issues, so that the Organ Mountains get the full protection they so 
richly deserve.
     h.r. 1411--california coastal national monument expansion act
    Thank you for the invitation to testify on H.R. 1411, the 
California Coastal National Monument Expansion Act. The Department of 
the Interior supports H.R. 1411, which would add approximately 1,255 
acres of public land along the coast of northern California to the 
existing California Coastal National Monument managed by the Bureau of 
Land Management (BLM).
Background
    The coast of northern California is rugged and spectacular. Along 
the Mendocino County portion of that coast, the BLM manages 1,255 
acres, including over 2 miles of coastline and the estuary of the 
Garcia River, adjacent to the historic Point Arena Lighthouse. In 2004, 
over 1,100 of these acres, commonly known as the Stornetta Public 
Lands, were acquired by the Federal Government, through donation, to be 
managed by the BLM. In early 2012 the BLM acquired approximately 123 
acres of additional lands from the Cyprus Abbey Corporation through a 
combination of donation and acquisition using funds from the Land and 
Water Conservation Fund (LWCF). The BLM expects to complete the 
remaining Cyprus Abbey acquisition later this year with the acquisition 
of an additional 409 acres. The President's budget for FY 2014 includes 
a request for LWCF funding of an additional $2 million to acquire the 
two remaining private inholdings from willing sellers.
    This relatively small area contains significant natural resources, 
including several riparian corridors, extensive wetlands, pine forests, 
meadows, coastal prairie and sand dunes. A broad range of wildlife, 
including a number of threatened or endangered species such as the 
Point Arena mountain beaver, Behren's silverspot butterfly, the western 
snowy plover and the California red-legged frog live in this diverse 
habitat. Dramatic blow holes and waterfalls cascading into the sea 
complement these natural resources.
    Extensive cultural resources attest to a history of occupation of 
this site going back at least 9,000 years. Up until the early 19th 
century, it was home to the Bokeya Pomo people whose village sat at the 
mouth of the Garcia River. Today, the Manchester Band of Pomo Indians 
partners with the BLM to conserve and protect the resource values on 
these lands.
    In addition, there are many recreational opportunities in the area 
which provide significant value for the local economy. The Garcia River 
is a destination fishing site, and the coastal areas offer marine 
wildlife viewing, including gray and blue whales, seals, sea lions, and 
river otters. The adjacent Point Arena Lighthouse, operated by the 
nonprofit Point Arena Lighthouse Keepers, welcomes over 30,000 visitors 
annually. These visitors frequent the tidepools and beaches on the 
adjacent public lands.
    The BLM currently manages these lands to protect their important 
natural, cultural, and historic resources. The BLM works cooperatively 
with a number of key partners, including the U.S. Fish and Wildlife 
Service, both the California Departments of Parks and Recreation and 
Department of Fish and Wildlife, the Manchester Band of Pomo Indians, 
Mendocino County, the City of Point Arena, the Point Arena Lighthouse 
Keepers, the Wildlife Conservation Board, the California Coastal 
Conservancy, the Conservation Lands Foundation, the Trust for Public 
Lands, the Stornetta Brothers Coastal Ranch, Coastwalk California, the 
National Audubon Society, and the California Native Plant Society among 
others.
H.R. 1411
    H.R. 1411 would add approximately 1,255 acres of Federal land (the 
``Point Arena-Stornetta public lands'') managed by the BLM to the 
existing California Coastal National Monument, which was established by 
Presidential Proclamation on January 11, 2000. The California Coastal 
National Monument includes all unappropriated and unreserved Federal 
lands within 12 miles of the California shoreline. Over 20,000 small 
islands, rocks, exposed reefs, and pinnacles (totaling about 1,000 
acres of land) constitute this offshore monument along California's 
1,100 miles of coastline, providing unique habitats for breeding 
seabirds and marine mammals.
    The addition of the Point Arena-Stornetta public lands to the 
California Coastal National Monument will promote the continued 
conservation, protection, and restoration of these significant public 
lands. By establishing a mainland base for access and interpretation of 
the existing monument, this addition will enhance the public enjoyment 
and understanding of the entire California Coastal National Monument. 
The BLM will continue to work with its many local partners encouraging 
public access to and appreciation of those resources. Local and 
national support for this addition is considerable and significant, a 
testament to the importance of the area.
Conclusion
    Thank you for the opportunity to testify in support of H.R. 1411. 
We look forward to the addition of the Point Arena-Stornetta public 
lands to the California Coastal National Monument.
                                 ______
                                 
Prepared Statement of the National Park Service, U.S. Department of the 
                         Interior, on H.R. 586
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 586, a bill that provides for 
certain improvements to the Denali National Park and Preserve in the 
State of Alaska, and for other purposes.
    The Department supports with an amendment Section 2 of H.R. 586, 
which would authorize the Secretary of the Interior (Secretary) to 
issue permits for micro-hydro projects in a limited area of the 
Kantishna Hills in Denali National Park (Park) and authorize a land 
exchange between the National Park Service (NPS) and Doyon Tourism, 
Inc. (Doyon). The Department has no objection to Section 3 of the bill, 
which would authorize the Secretary to issue right-of-way permits for a 
natural gas transmission pipeline in non-wilderness areas within the 
boundary of the Park. The Department also has no objection to Section 4 
of the bill, which would designate the Talkeetna Ranger Station as the 
Walter Harper Talkeetna Ranger Station.
Kantishna Hills Micro-Hydro Projects and Land Exchange
    Section 2 of the bill would authorize the issuance of permits for 
micro-hydro projects, which will reduce the use of fossil fuels in the 
park, lessen the chance of fuel spills along the park road and at the 
Kantishna lodges, lower the number of non-visitor vehicle trips over 
the park road, lessen the noise and emissions from diesel generators in 
the Moose Creek valley, and support clean energy projects and 
sustainable practices while ensuring that appropriate review and 
environmental compliance protects all park resources.
    Doyon Tourism, Inc., a subsidiary of Alaska Native Corporation 
Doyon, Ltd., has requested permits from the NPS to install a micro-
hydroelectric project on Eureka Creek, near its Kantishna Roadhouse. 
The NPS supports the intent of this project; however, neither the 
Secretary nor the Federal Energy Regulatory Commission (FERC) has the 
statutory authority to issue permits for portions of hydroelectric 
projects within national parks or monuments. We believe that the 
authorization contained in this legislation is necessary to enable the 
NPS to allow this micro-hydroelectric project within the Park.
    The Kantishna Roadhouse, at the end of the 92-mile-long Denali park 
road, has been in business for 28 years, hosts approximately 10,000 
guests per summer, and currently uses an on-site 100 kilowatt (KW) 
diesel generator to provide power for the facility. The proposed 
hydroelectric installation would reduce use of the diesel generator at 
the lodge. Currently, delivery of diesel fuel to the lodge requires a 
tanker truck and trailer to be driven the entire length of the Denali 
park road. Noted for its undeveloped character, the road is unpaved for 
77 miles of its 92-mile length, crosses high mountain passes without 
guardrails, and is just 1 to 1\1/2\ lanes wide with pullouts. The road 
is famous for wildlife viewing opportunities and in order to protect 
wildlife as well as the road's scenic wilderness character, vehicle 
traffic is limited. Reducing the amount of diesel fuel hauled over this 
road in tanker trucks protects park resources by reducing the risk of 
accident or spill, and simultaneously reduces overall vehicle use of 
the road.
    Eureka Creek is a 4-mile-long stream that drains a 5 square-mile 
watershed and discharges about 15 cubic feet per second (cfs) during 
the summer. Most of the floodplain has been disturbed by past placer 
mining, but no mining claims exist on the creek now and no other 
landowners besides Doyon and the NPS own any property near this 
floodplain. The project would include an at-grade water intake, with no 
impoundment, about 1 mile upstream of where Eureka Creek crosses the 
park road.
    Camp Denali, another lodge in the Kantishna Hills, is within the 
area addressed by this legislation. Camp Denali opened in 1952 and the 
owners installed a micro-hydro generator system prior to the 1978 
Presidential proclamation that included the Kantishna Hills as a part 
of what is now the Park. After 1978, Camp Denali became a private in-
holding surrounded by the Park, and found that parts of its micro-hydro 
power system were within the Park, a situation that the NPS lacks the 
authority to permit or retain. This legislation would allow the NPS and 
the owners of Camp Denali to work out permit conditions for those parts 
of the existing hydro project that are now on park land. Besides the 
Kantishna Roadhouse and Camp Denali, two other lodges in the Kantishna 
Hills may pursue similar projects in the future and thus would benefit 
from the authority granted in this legislation.
    Section 2 requires the Secretary to complete National Environmental 
Policy Act (NEPA) compliance not later than 180 days after the date on 
which an applicant submits an application for the issuance of a permit. 
We recommend that the bill be amended to avoid putting an undue burden 
on the NPS to respond in the 180-day time frame, particularly if the 
initial application is incomplete or inaccurate, as sometimes happens. 
We would be happy to work with the committee on this amendment.
    In addition to authorizing micro-hydro projects, Section 2 would 
authorize a land exchange. Doyon owns 18 acres on the patented Galena 
mining claim in the Kantishna Hills and would like to exchange that 
acreage for park land in the Kantishna Hills of equal value near its 
other properties. The NPS would also like to pursue this exchange to 
consolidate land holdings in the area. Existing land exchange authority 
under the Alaska National Interest Lands Conservation Act (ANILCA) and 
other legislation is sufficient to effect this exchange. Thus, while we 
believe that this exchange authority is not needed for legal purposes, 
we support its inclusion as an expression of Congressional intent.
Natural Gas Pipeline Right-of-Way Authorization
    Section 3 of this legislation would authorize the Secretary to 
issue right-of-way permits for a natural gas transmission pipeline in 
non-wilderness areas within the boundary of the Park. The potential 
owners and operators of such a pipeline have not, at this time, 
determined whether such a line carrying natural gas to south-central 
Alaska is financially feasible, nor have they determined the best route 
for a pipeline. This legislation provides flexibility for the backers 
of a proposed pipeline, and provides assurance to the NPS that the NEPA 
analysis will be completed before any permit for work in the Park would 
be issued by the Secretary.
    Section 3 would also provide authority for the Secretary to permit 
distribution lines and related equipment within the park for the 
purpose of providing a natural gas supply to the Park. We have no 
objection to this provision, but we want to advise the Committee that 
at this time no decisions have been made about the financial or 
engineering feasibility, nor the exact configuration of equipment 
needed to facilitate tapping the larger line to allow local use of 
natural gas in or near the Park.
Redesignation of the Talkeetna Ranger Station
    Section 4 would designate the Park's South District Ranger Station 
in Talkeetna as the Walter Harper Talkeetna Ranger Station. Mr. Harper 
grew up in Alaska and, as a young man, served as an interpreter and 
guide for the far-flung ministry of Hudson Stuck, an Episcopal 
archdeacon. He joined Stuck on an arduous trip in 1913 to reach the 
summit of North America's highest peak. For nearly 3 months, the group 
moved slowly south from Fairbanks and into the high mountains of the 
Alaska Range. On June 7, 1913, Walter Harper, 21, became the first man 
to set foot on the summit of Denali, the Athabascan name for the peak, 
meaning the High One.
    Since 1913, thousands of climbers have aimed for the summit. Unlike 
Mr. Harper, who traveled south from Fairbanks into the Alaska Range, 
the vast majority of climbers today begin their expeditions with an 
airplane ride out of Talkeetna on the south side of the Park. The NPS 
ranger station there serves as an orientation center for climbers and 
other visitors to the Denali region. The community is proud of its 
varied history as a railroad town, a jumping off point for miners, and 
in the past several decades as the take-off point for climbing 
expeditions.
    The Department's position on naming the ranger station for Walter 
Harper strikes a balance between recognizing Mr. Harper's historic 
accomplishment and upholding the NPS policy on commemorative works, 
which discourages the naming of park structures for a person unless the 
association between the park and the person is of exceptional 
importance. Mr. Harper's achievement occurred before the Park was 
established and therefore, there was no direct association between the 
two.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you may have.
                                 ______
                                 
    Mr. Bishop. Thank you. And I appreciate you coming here and 
your patience. Mr. Grijalva, do you have any questions on these 
three bills?
    Mr. Grijalva. No, just two things: the significance of the 
Park Service agreeing with Congressman Young, and conversely, 
Congressman Young agreeing with the Park Service. I think that 
should be marked down as some special day here.
    And the other is one of the witnesses--I think it was Mr. 
Horn--I have been accused of many things, Mr. Chairman, but 
tender sensibilities was not one of them. But with regard to 
the guns in the park. But anyway, thank you, I appreciate it 
and yield back.
    Mr. Bishop. Thank you very much. Maybe we can have a 
monument on the mall.
    Mr. Grijalva. Tender sensibilities?
    Mr. Bishop. Yes, for both of those.
    [Laughter.]
    Mr. Bishop. Mr. Rountree, I do have a whole series of 
questions that I would like to extend to you. The BLM field 
manual, 6310, which is amazingly similar to the Wildlands 2.0 
manual, it directs land managers to overlook naturalness when 
determining an area's wilderness characteristic, or at least 
minimize the impact that would prohibit an area because of 
naturalness. Why should naturalness be overlooked when 
conducting wilderness inventories, or minimized?
    Mr. Rountree. Unfortunately, I am not that familiar with 
the manuals, Mr. Chairman. We would be happy to respond to that 
question and get back to you, for the record.
    Mr. Bishop. We will submit it for a written response, as 
well.
    Mr. Rountree. Yes, sir.
    Mr. Bishop. Do you think, though, that this kind of a 
guidance would diminish or water-down a true wilderness 
characteristic?
    Mr. Rountree. In terms of the area's naturalness?
    Mr. Bishop. Yes.
    Mr. Rountree. It is certainly something that we would want 
to preserve in a designated wilderness area.
    Mr. Bishop. So, by minimizing naturalness, is that 
changing, or minimizing the wilderness characteristics? Do you 
cheat on what wilderness means, if you overlook that?
    Mr. Rountree. Yes, again, we would have to get back with 
you on the record for that, if we could, please, sir.
    Mr. Bishop. Well, I will keep going down there, and we will 
have a whole lot of stuff that----
    Mr. Rountree. Sure.
    Mr. Bishop [continuing]. You can write to me later. If 
naturalness is removed from the equation, are there areas of 
public land that would not qualify for wilderness?
    Mr. Rountree. Again, sir, I am sorry, I would have to 
probably get one of our wilderness experts to work with you in 
providing you information on that question.
    Mr. Bishop. All right. Let's deal specifically with the 
area that you are talking about in Mr. Pearce's bill, which, I 
would like to add for the record--Mr. Pearce is not here, he is 
actually attending a funeral in New Mexico, which I consider to 
be a significant reason for doing that.
    Let me come back here again, Mr. Rountree, that the BLM 
opposed parts of Mr. Pearce's bill because the national 
monument boundary did not include surrounding lands that were 
not included in the 1993 area of critical environmental concern 
inventory. So they contend that these recently acquired lands 
and surrounding public lands--two different categories--should 
be incorporated in the monument.
    So, what has changed with the surrounding public lands, or 
the character specifically of those surrounding public lands, 
to make them eligible for designation now, but not in 1993?
    Mr. Rountree. I can speak to two of those. The other 
additions, Mr. Chairman, would probably have to talk with our 
Las Cruces office to get you more information.
    But one has to do with the acquisition of lands near 
Soledad Canyon, which is an area of high recreational use 
within the boundaries of the national monument. Another area 
has to do with lands that the military is interested in having 
the Bureau of Land Management acquire, called Fillmore Canyon. 
Those are two areas that we feel certainly have characteristics 
of the national monument, the values and objects cited in the 
legislation. And those are areas that we feel should be a part 
of the national monument.
    In addition, the military has approached us about including 
other areas along the west side of the Organ Mountains to 
include the national monument, and we would want to be working 
with them and the Committee to determine whether or not those 
should be added to The National monument----
    Mr. Bishop. So what you are telling me is this is a matter 
of ownership. The characteristics of these lands have not 
changed since 1993?
    Mr. Rountree. In terms of the monument--or the proposed 
monument itself, or those lands outside----
    Mr. Bishop. The surrounding areas.
    Mr. Rountree. I think they probably remain the same.
    Mr. Bishop. Pardon me?
    Mr. Rountree. Remain the same.
    Mr. Bishop. Is it possible for an ACEC and wilderness areas 
to be mutually exclusive? Can you have wilderness in an ACEC? 
Do you have to have wilderness in an ACEC?
    Mr. Rountree. You do not have to have wilderness in an 
ACEC. An ACEC is a designation that the Agency has the 
discretion of determining through its land use planning 
process. These are usually, as you are aware, very rigorous 
processes with a lot of NEPA analysis. Wilderness, of course, 
is designated by Congress.
    I don't know of any wilderness areas that have ACECs, 
although there may be. And we will be happy to determine 
whether or not there are wilderness areas with those 
characteristics, or at least those designations in them.
    Mr. Bishop. But by definition, they are not necessarily 
mutually exclusive.
    Mr. Rountree. No, sir.
    Mr. Bishop. It is just a different designation and use for 
the lands----
    Mr. Rountree. Correct.
    Mr. Bishop [continuing]. That would take place.
    Mr. Rountree. That is correct.
    Mr. Bishop. In your testimony on the Huffman bill, you said 
that this would promote the continued conservation protection 
and restoration of these significant public lands. Can you 
please explain to me how it would promote restoration of these 
lands? Well, let's start with that one.
    Mr. Rountree. Sure. What it would probably do is just place 
a greater emphasis on the area, in terms of its restoration. 
One of the things that the bill talks about in terms of 
national monuments and national conservation areas, 
conservation, protection, and restoration. In many of these 
areas there are invasive plant species. That would certainly be 
something that we would be interested in trying to rectify in 
these areas.
    More than anything else, though, I think it just means that 
with this special designation by Congress, the Bureau of Land 
Management would be more inclined to focus greater attention 
into the restoration of the area.
    Mr. Bishop. Do you have anything other than invasive 
species that would be specifically restored by this particular 
piece of legislation?
    Mr. Rountree. It could be, if there was any damage that was 
done, either through erosion or perhaps some previous use, 
those areas would probably want to be restored, as well.
    Mr. Bishop. So is wilderness a renewable resource? Can 
wilderness be restored?
    Mr. Rountree. It is, I think, something that a lot of 
people have argued about. Certainly the earth has a way of 
rectifying itself, or at least being able to erase some of the 
scars and many of the areas that we found did not have 
wilderness characteristics. In a sense, I guess you could say 
that it is.
    Mr. Bishop. How many wilderness inventories does BLM 
perform each year?
    Mr. Rountree. I don't have the number. The inventories that 
we do do--and I will be happy to provide those to you----
    Mr. Bishop. Thank you.
    Mr. Rountree [continuing]. Are done in response to our 
resource management planning. Currently we have somewhere in 
the neighborhood of 40 to 70 underway. A part of that resource 
management planning process is inventorying resources for 
things like wilderness characteristics, much as we would 
wildlife or recreation or other uses out on the public lands.
    So, those would be primarily the major instances. When we 
have large surface-disturbing activities, if there is large 
solar plants, for example, wind energy plants, we look to see 
whether or not the inventories are current. If they are not, 
then we use the best available means to determine whether or 
not the areas do have lands with wilderness character, if 
inventories have not been conducted.
    Mr. Bishop. So you are telling me there are new acres, 
additional acres of new wilderness, that are discovered 
following each inventory?
    Mr. Rountree. Not wilderness, but lands with wilderness 
character.
    Mr. Bishop. Do you have any kind of recommendation of how 
many acres of new wilderness were developed in these new 
inventories?
    Mr. Rountree. I do not. We----
    Mr. Bishop. Is that something else you can get back with 
me?
    Mr. Rountree. I will be happy to. Yes, sir.
    Mr. Bishop. Because one of the problems seems--everything 
seems to be stacked in favor of wilderness. On the one hand, 
the agency guidelines direct managers to overlook the real 
definition of wilderness in this naturalness, by overlooking 
naturalness. And I appreciate you getting back to me 
specifically on those particular issues.
    Mr. Rountree. Absolutely.
    Mr. Bishop. You did leave the staff briefing on these 
manuals pursuant to the letter we sent to you, but I want that 
answer there.
    But on the one hand you seem to be able to say that these 
definitions can be changed or modified in some way to overlook 
naturalness. And on the other hand, you also say that these 
wilderness sources are renewable. They can come back, they can 
be restored. Either way you win on this concept. I mean by 
those definitions, liberally applied, the deck on my apartment 
could be considered having wilderness characteristics, and over 
a period of time restored to a wilderness pattern. It seems 
like there is no win on any of those.
    Let me move on to another one, which deals with national 
monuments that were recently designated by the President that 
were originally private property. In fact, they were private 
property until, I believe, just 2 days before the designation 
was made, in which, in that period of time, they had been 
donated to the Federal Government, it is especially amazing 
that they were able to do so in an agency that takes months and 
sometimes years to actually get permits approved. But they were 
able to move very quickly on that.
    So, what I would specifically like to ask dealing with 
those two pieces of property, is how does the Department of the 
Interior accept donations of private property for inclusion in 
national monuments?
    Mr. Rountree. Again----
    Mr. Bishop. Especially those--let's----
    Mr. Rountree. Sure.
    Mr. Bishop. Let's not make it too broad for you.
    Mr. Rountree. Sure.
    Mr. Bishop. Specifically those that were created by the 
Antiquities Act.
    Mr. Rountree. I am unfamiliar with those acquisitions, Mr. 
Chairman. We will be happy to get back with you.
    My staff is telling me those were National Park Service 
acquisitions.
    Mr. Bishop. OK. I would still like to know what--how do you 
accept those types of things. We have sent that letter already. 
I am still anxiously awaiting for a response to it, and will 
probably repeat the questions again until I do get a response 
to the letter that was there for the record.
    So, I am--is Mr. Frost available to answer that one?
    Mr. Frost. I----
    Mr. Bishop. Smart thinking.
    Mr. Frost. We would have to get back with you. I don't know 
the details on that.
    Mr. Bishop. Well, then, let me not let you go so easy, and 
I will redo the questions that we asked earlier and still are 
waiting for the answer.
    Is there a vetting process? Is this a public process? Two 
questions.
    Mr. Frost. I think there are a variety of ways in which we 
acquire donations. And again, I am not the lands guy here, so I 
don't want to tread in areas and sort of get myself into a 
hole.
    Mr. Bishop. Well, let's make sure that when I do get back 
an official answer, it is specific about those two areas that 
were acquired in 2 days and made public property so very 
quickly before the designation took place. And I want to know 
what the vetting process was, and if the public was involved in 
that kind of a process. Do you----
    Mr. Frost. And so--just--can I just----
    Mr. Bishop. Please.
    Mr. Frost. Basic clarification. So you are talking about 
the First State National Monument up in Delaware? Is that the 
one?
    Mr. Bishop. No.
    Mr. Frost. So which ones are you----
    Mr. Bishop. Cesar Chavez and the Buffalo----
    Mr. Frost. Oh, Charles Young Buffalo Soldiers?
    Mr. Bishop. Yes.
    Mr. Frost. OK. Cesar Chavez--OK. Thank you.
    Mr. Bishop. Those two were private property until 2 days 
before the designation.
    So, you can probably answer this one. Was the Department of 
Justice or any other agencies involved in any of these 
proceedings, or the negotiations that lead up to the donation 
of private property?
    Mr. Frost. Again, I don't know, but I would assume so.
    Mr. Bishop. So, I guess, once again, for the record, if you 
could provide me with a list of the agencies and staff members 
who participated in the private property donation proceedings, 
that was--for the record already, we have yet to receive that 
particular answer.
    And if you would also provide an itemized cost estimate for 
the President's designation under the Antiquities Act, 
including the acquisition of those lands, preparation and 
rehabilitation for the structures, as well as their annual 
operating costs. And so you can zero in on those two pieces of 
property, they are the ones to which I have the greatest amount 
of concern.
    Are either of you working on or have you been asked by the 
Secretary or the President to work on any upcoming national 
monument proclamations?
    Mr. Rountree. Absolutely not.
    Mr. Frost. I am not aware of any for the National Park 
Service. I mean there is the one piece of legislation on Valles 
Caldera that is floating around somewhere. But that is going 
through the legislative process.
    Mr. Bishop. I appreciate things going through the 
legislative process.
    Mr. Rountree, in one of the earlier answers to Mr. 
Grijalva, he asked you about the NEPA process. And you 
basically said, ``We should do NEPA for everything,'' which I 
happen to admit and agree with you in that particular case, 
which is why it is so frustrating to have had another hearing 
on the EPIC Act, in which the Administration's position was the 
exact opposite. Whenever we have a land change, there are broad 
impacts because of those land change, and it would require, 
actually, local input. The Administration has been invited here 
to provide administrative input to our legislative process that 
deals specifically with Mr. Young and Mr. Huffman and Mr. 
Pearce's bills.
    But at the same time, the Administration argues that it 
should not be held subject to any kind of legislative scrutiny 
or public scrutiny or a NEPA scrutiny when it uses the 
Antiquities Act to do something. I am sorry. Those two 
positions don't' work together. Either NEPA is good for the 
President and the legislative process, or it is not good for 
the President and then it is not good for the legislative 
process, as well. You can't have it both ways. And I find it 
very disconcerting to have had the testimony earlier on the 
Antiquities Act, that NEPA should never be used by a President, 
and never used in that process, because--because.
    So, gentlemen, I appreciate you being here for the hearing 
and your testimony on these bills. There were several that I 
asked specifically about the New Mexico proposal. I would like 
those written as quickly as possible.
    Mr. Rountree. You bet.
    Mr. Bishop. And I will reaffirm that the letter of 
questions that we sent earlier, I still want a response to it. 
And I intend on every hearing we have to keep asking those 
questions until I actually do get a response from Interior on 
how you went about this process. I mean if you can take the 
property in 2 days, you should be able to write a letter in 
that same period of time.
    Well, I was going to ask if there are any other questions, 
but it is kind of a redundant question, isn't it?
    I do ask unanimous consent--I guess if I object to it, that 
would really be bad, wouldn't it? I object--to insert a letter 
to the Chairman and the Ranking Member on the Benishek bill, 
and have that added to the record.
    And I guess I have another one. I would like to ask 
unanimous consent to have another letter written to myself from 
the National Association of Former Border Patrol Officers, as 
well, to be inserted into the record, specifically about H.R. 
995.
    [The information submitted for the record by the Chairman 
has been retained in the Committee's official files:]
    Mr. Bishop. With that, once again, I appreciate you being 
here, and I want to again apologize for making you wait in that 
period of time. I know that used to be traditional. We tried in 
the transition back in 2011 to change that process so the 
Committee time would never have to do that. And I hope you will 
never have to come here again and be subject to that.
    So, with that apology, I thank you for your testimony. I 
thank you, and I look forward with bated anticipation to your 
answers in written form.
    There may be other questions that other Members have. We 
would ask you to be prepared to also respond to them within 10 
days in written form, as well.
    With that, without objection, the hearing is adjourned.
    [Whereupon, at 12:35 p.m., the Subcommittee was adjourned.]

            [Additional Materials Submitted for the Record]

    The documents listed below have been retained in the 
Committee's official files.

        <bullet>  American Motorcyclist Association, Letter for the 
        record in support of H.R. 995
        <bullet>  Anthony Chamber of Commerce, Letter to Chairman 
        Bishop for the record in support of H.R. 995
        <bullet>  Anthony Chamber of Commerce, Letter to Chairman 
        Hastings for the record in support of H.R. 995
        <bullet>  Archery Trade Association, Association of Fish and 
        Wildlife Agencies, Boone & Crockett Club, et. Al., Letter for 
        the record in support of H.R. 1825
        <bullet>  Deming Soil and Water Conservation District, Letter 
        for the record in support of H.R. 995
        <bullet>  Defenders of Wildlife, Letter for the record is 
        opposition of H.R. 1825
        <bullet>  Dona Ana County Sheriff's Department, Letter for the 
        record in support of H.R. 995
        <bullet>  Los Cruces Chamber of Commerce, Letter for the record 
        commending Rep. Pearce for his work to protect the Organ 
        Mountains.
        <bullet>  Los Cruces Chamber of Commerce, Letter for the record 
        in opposition to the proposal to Establish the Organ Mountain-
        Desert Peaks National Monument in Dona Ana County, New Mexico
        <bullet>  Mesilla Valley Sportsmen's Alliance, Letter for the 
        record in support of H.R. 995
        <bullet>  Western Heritage Alliance, Letter for the record in 
        Support of H.R. 995
        <bullet>  Hispano Chamber of Commerce de Las Cruces, Letter for 
        the record in support of H.R. 995
        <bullet>  Linebery Policy Center for Natural Resource 
        Management, Letter for the record in support of H.R. 995
        <bullet>  National Association of Former Border Patrol 
        Officers, Letter for the record in support of H.R. 995
        <bullet>  Trout Unlimited, Letter for the record, regarding 
        Congress's attention to hunting, fishing and shooting sports on 
        public lands.
        <bullet>  Wilmeth, Steve, Letter for the record in support of 
        H.R. 995

                                 <all>

</pre></body></html>
